<html>
<title> - OVERSIGHT OF PASSENGER AND FREIGHT RAIL SAFETY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





              OVERSIGHT OF PASSENGER AND FREIGHT RAIL SAFETY

=======================================================================

                                (113-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                           FEBRUARY 26, 2014

                               ----------                              

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










             OVERSIGHT OF PASSENGER AND FREIGHT RAIL SAFETY

=======================================================================

                                (113-54)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                       RAILROADS, PIPELINES, AND
                          HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

86-845 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001











             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,          Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDRE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
VACANCY
                                ------                                

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman
JOHN J. DUNCAN, Jr., Tennessee       CORRINE BROWN, Florida
JOHN L. MICA, Florida                DANIEL LIPINSKI, Illinois
GARY G. MILLER, California           JERROLD NADLER, New York
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
SHELLEY MOORE CAPITO, West Virginia  MICHAEL H. MICHAUD, Maine
CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               ALBIO SIRES, New Jersey
BOB GIBBS, Ohio                      JANICE HAHN, California
PATRICK MEEHAN, Pennsylvania         ANN KIRKPATRICK, Arizona
RICHARD L. HANNA, New York, Vice     ELIZABETH H. ESTY, Connecticut
    Chair                            PETER A. DeFAZIO, Oregon
DANIEL WEBSTER, Florida              MICHAEL E. CAPUANO, Massachusetts
THOMAS MASSIE, Kentucky              NICK J. RAHALL, II, West Virginia
ROGER WILLIAMS, Texas                  (Ex Officio)
SCOTT PERRY, Pennsylvania
BILL SHUSTER, Pennsylvania (Ex 
    Officio)
VACANCY














                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY
                                Panel 1

Hon. Richard Blumenthal, a U.S. Senator from the State of 
  Connecticut....................................................     2
Hon. Kevin Cramer, a Representative in Congress from the State of 
  North Dakota...................................................     2

                                Panel 2

Hon. Joseph C. Szabo, Administrator, Federal Railroad 
  Administration.................................................     6
Hon. Cynthia L. Quarterman, Administrator, Pipeline and Hazardous 
  Materials Safety Administration................................     6
Hon. Robert L. Sumwalt, Board Member, National Transportation 
  Safety Board...................................................     6
Michael P. Melaniphy, president and chief executive officer, 
  American Public Transportation Association.....................     6
Jack N. Gerard, president and chief executive officer, American 
  Petroleum Institute............................................     6
John Tolman, vice president and national legislative 
  representative, Brotherhood of Locomotive Engineers and 
  Trainmen.......................................................     6
Edward R. Hamberger, president and chief executive officer, 
  Association of American Railroads..............................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Corrine Brown, of Florida...................................    43
Hon. Rick Larsen, of Washington..................................    45

 PREPARED STATEMENTS AND ANSWERS TO QUESTIONS FOR THE RECORD SUBMITTED 
                              BY WITNESSES

Hon. Richard Blumenthal \1\
Hon. Kevin Cramer \2\
Hon. Joseph C. Szabo:

    Prepared statement...........................................    46
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................    61
        Hon. Corrine Brown, of Florida...........................    79
        Hon. Michael H. Michaud, of Maine........................    82
        Hon. Sean Patrick Maloney, of New York...................    84
        Hon. Daniel Lipinski, of Illinois........................    85
Hon. Cynthia L. Quarterman:

    Prepared statement...........................................    87
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................   106
        Hon. Corrine Brown, of Florida...........................   109
        Hon. Daniel Lipinski, of Illinois........................   114
        Hon. Michael H. Michaud, of Maine........................   115

----------
\1\ Hon. Richard Blumenthal, a U.S. Senator from the State of 
Connecticut, did not submit a written statement for the record.
\2\ Hon. Kevin Cramer, a Representative in Congress from the State of 
North Dakota, did not submit a written statement for the record.
Hon. Robert L. Sumwalt:

    Prepared statement...........................................   117
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................   130
        Democrative Representatives of the House Committee on 
          Transportation and Infrastructure......................   133
Michael P. Melaniphy:

    Prepared statement...........................................   151
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................   164
        Hon. Corrine Brown, of Florida...........................   169
Jack N. Gerard:

    Prepared statement...........................................   172
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................   175
        Democrative Representatives of the House Committee on 
          Transportation and Infrastructure......................   179
John Tolman:

    Prepared statement...........................................   181
    Answers to questions for the record from the following 
      Representatives:

        Hon. Corrine Brown, of Florida...........................   186
        Hon. Michael H. Michaud, of Maine........................   189
Edward R. Hamberger:

    Prepared statement, including an appendix with comment on the 
      Federal Communications Commission's draft program comment 
      to govern review of positive train control facilities under 
      section 106 of the National Historic Preservation Act......   190
    Answers to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham, of California..........................   251
        Hon. Corrine Brown, of Florida...........................   256
        Hon. Michael H. Michaud, of Maine........................   260

                       SUBMISSIONS FOR THE RECORD

Larry McCallon, chair, Metrolink board of directors, and Michael 
  P. DePallo, chief executive officer, Metrolink; joint letter to 
  Hon. Jeff Denham, a Representative in Congress from the State 
  of California; March 11, 2014..................................   262
Mollie Matteson, senior scientist, Northeast Office, Center for 
  Biological Diversity, letter to Hon. Mark R. Warner, a U.S. 
  Senator from the State of Virginia; Hon. Roy Blunt, a U.S. 
  Senator from the State of Missouri; Hon. Jeff Denham, a 
  Representative in Congress from the State of California; and 
  Hon. Corrine Brown, a Representative in Congress from the State 
  of Florida; January 9, 2014....................................   265
David O. Willauer, manager, transporation security and geospatial 
  imaging, IEM, written testimony................................   270
Bruce Bennett, president, Stage 8 Locking Fasteners, request to 
  submit the following into the record:

    Written statement of Stage 8 Locking Fasteners...............   276
    Xiang Liu, M. Rapik Saat & Christopher P.L. Barkan, 
      ``Analysis of Causes of Major Train Derailment and Their 
      Effect on Accident Rates,'' 2289 Transportation Research 
      Record: Journal of the Transportation Research Board, at 
      154 (2012).................................................   282
    Stage 8 Locking Fasteners, roller bearing cap screw cost-
      benefit analysis...........................................   292
    Petition from Stage 8 Locking Fasteners filed with the 
      Federal Railroad Administration requesting the issuance of 
      a standard for the adoption of the cap screw locking system 
      as the standard system for clamping and retaining bearings 
      on railroad freight cars...................................   295
National Transportation Safety Board, ``Safety Study: Transport 
  of Hazardous Materials by Rail,'' notation 5488, adopted May 
  16, 1991 \3\

----------
\3\ National Transportation Safety Board, ``Safety Study: Transport of 
Hazardous Materials by Rail,'' notation 5488, adopted May 16, 1991, can 
be found online at the Government Printing Office's Federal Digital 
System (FDsys) at http://www.gpo.gov/fdsys/pkg/CPRT-113HPRT88477/pdf/
CPRT-113HPRT88477.pdf.
Anthony R. Foxx, Secretary of Transportation, Department of 
  Transportation (DOT), letter to Edward R. Hamberger, president 
  and chief executive officer, Association of American Railroads 
  (AAR), commitments that DOT propose that AAR make to address 
  safety concerns regarding transportation of crude oil by rail, 
  February 20, 2014; and AAR's acknowledgment and agreement to 
  the commitments, February 21, 2014.............................   324
Letters from Representatives in Congress to Federal agencies 
  regarding rail safety and the transportation of hazardous 
  material by rail:

    Hon. Sean Patrick Maloney, of New York, letter to Deborah 
      A.P. Hersman, Chairman, National Transportation Safety 
      Board, requesting investigation of the December 1, 2013, 
      Metro-North train derailment, December 2, 2013.............   328
    Hon. Michael H. Michaud, of Maine; Hon. Peter A. DeFazio, of 
      Oregon; Hon. Betty McCollum, of Minnesota; Hon. Collin C. 
      Peterson, of Minnesota; Hon. Timothy J. Walz, of Minnesota; 
      Hon. Chellie Pingree, of Maine; and Hon. Ron Kind, of 
      Wisconsin, letter to Joseph C. Szabo, Administrator, 
      Federal Railroad Administration (FRA), and Cynthia L. 
      Quarterman, Administrator, Pipeline and Hazardous Materials 
      Safety Administration (PHMSA), requesting that PHMSA 
      expedite its ongoing rulemaking to improve the rail 
      transport of hazardous material and requesting that PHMSA 
      and FRA review the adequacy of existing railway tank cars 
      and safety regulations, January 31, 2014...................   329
Letters from/to Representatives in Congress regarding rail safety 
  and the transportation of hazardous material by rail:

    Hon. Michael H. Michaud, of Maine, letter to Hon. Jeff 
      Denham, of California, and Hon. Corrine Brown, of Florida, 
      requesting hearing on railway safety, August 13, 2013......   331
    Hon. Elizabeth H. Esty, of Connecticut, letter to Hon. Jeff 
      Denham, of California, and Hon. Corrine Brown, of Florida, 
      requesting hearing to investigate deficiencies in the 
      Nation's existing infrastructure and safety practices that 
      threaten the reliability of rail service, September 26, 
      2013.......................................................   333
    Hon. Elizabeth H. Esty, of Connecticut; Hon. Timothy H. 
      Bishop, of New York; Hon. Jerrold Nadler, of New York; and 
      Hon. Sean Patrick Maloney, of New York, letter to Hon. Bill 
      Shuster, of Pennsylvania; Hon. Nick J. Rahall, II, of West 
      Virginia; Hon. Jeff Denham, of California; and Hon. Corrine 
      Brown, of Florida, requesting a hearing on rail safety, 
      December 6, 2013...........................................   335
    Hon. Peter A. DeFazio, of Oregon, letter to Hon. Bill 
      Shuster, of Pennsylvania; Hon. Nick J. Rahall, II, of West 
      Virginia; Hon. Jeff Denham, of California; and Hon. Corrine 
      Brown, of Florida, requesting a hearing to examine the 
      safety of the Nation's rail cars, specifically DOT-111 tank 
      cars, January 7, 2014......................................   337
    Hon. Corrine Brown, of Florida; Hon. Daniel Lipinski, of 
      Illinois; Hon. Elijah E. Cummings, of Maryland; Hon. Grace 
      F. Napolitano, of California; Hon. Albio Sires, of New 
      Jersey; Hon. Jerrold Nadler, of New York; Hon. Michael H. 
      Michaud, of Maine; Hon. Timothy J. Walz, of Minnesota; Hon. 
      Janice Hahn, of California; Hon. Ann Kirkpatrick, of 
      Arizona; Hon. Michael E. Capuano, of Massachusetts; Hon. 
      Elizabeth H. Esty, of Connecticut; and Hon. Peter A. 
      DeFazio, of Oregon, letter to Hon. Jeff Denham, of 
      California, requesting a hearing on rail safety, January 
      15, 2014...................................................   339
    Hon. Rick Larsen, of Washington, letter to Hon. Bill Shuster, 
      of Pennsylvania, and Hon. Nick J. Rahall, II, of West 
      Virginia, requesting an oversight hearing on the transport 
      of crude oil by rail, January 23, 2014.....................   343


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



 
             OVERSIGHT OF PASSENGER AND FREIGHT RAIL SAFETY

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2014

                  House of Representatives,
Subcommittee on Railroads, Pipelines and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m. in 
Room 2167, Rayburn House Office Building, Hon. Jeff Denham 
(Chairman of the subcommittee) presiding.
    Mr. Denham. The subcommittee will come to order. First, I 
would ask unanimous consent that Representative Rick Larsen be 
admitted to join the subcommittee for today's hearing, and ask 
any questions he feels are relevant.
    [No response.]
    Mr. Denham. Without objection, so ordered.
    Now, let me welcome our distinguished witnesses and thank 
them for testifying here today. It is one of this 
subcommittee's charges to ensure the safe movement of goods and 
people on our Nation's railroad network, including the movement 
of hazardous materials.
    The Federal Rail Administration, the FRA, is a data-driven 
organization that focuses on the safety of the railroad 
industry, including operations, track, and equipment. The 
Pipeline and Hazardous Materials Safety Administration is 
responsible for the safety and transportation of hazardous 
materials, regardless of mode. And both work together to ensure 
hazardous materials are transported safely by rail.
    I think everyone here today agrees that safety is and 
should be a priority for each and every railroad. That focus on 
safety has worked quite well with 2012 as the safest year on 
record, and 2013 looking to match or exceed that record.
    However, there have been some very high-profile incidents, 
some major tragedies. And we need to understand what happened 
to ensure we can take the necessary steps to prevent future 
accidents. As we have seen in the past, though, the answer 
isn't always to rush to judgment, but to work together to find 
solutions that are data-driven and make sense.
    For example, after the commuter rail accident in New York, 
I visited the site of--with MTA. They explained how they were 
able to work with FRA to agree on safety measures to slow 
trains at certain points on the tracks, and ensure alertness of 
those operating the trains.
    Similarly, I am pleased to hear that the industry and 
Government have been working as partners to find agreement on 
measures that enhance safety and can be reasonably implemented 
for the operation of crude trains.
    I thank everyone here for coming to discuss their efforts 
on rail safety, and look forward to discussing these important 
issues with the witnesses.
    I would now like to--well, I will recognize the ranking 
member when she comes in.
    Let me just explain the ground rules of today's hearing. We 
have, obviously, a full set of VIPs in the front row here. We 
want to hear from everybody. We would ask you to keep your 
statements brief, because we want to spend as much time on 
questions as possible. And, obviously, due to our vote 
schedule, we are a little far behind. So I will be taking the 
aggressive gavel as the lighting system goes on.
    I mean it is very simple. Green, you can still go. The 
yellow is a yield; start wrapping things up. And red is a firm 
stop. So we would ask you to adhere to those.
    And, without further ado, we have got two panels today. Our 
first panel is Representative Kevin Cramer and Senator Richard 
Blumenthal.
    After receiving testimony from our first panel, we will 
proceed to our second panel of testimony. I ask unanimous 
consent that our witnesses' full statements be ordered into the 
record.
    [No response.]
    Mr. Denham. Without objection, so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee would ask your oral testimony to be 5 
minutes.
    Senator Blumenthal, welcome to the committee. We look 
forward to working with you on rail and rail safety issues. 
Welcome, and you may proceed.

 TESTIMONY OF HON. RICHARD BLUMENTHAL, A U.S. SENATOR FROM THE 
 STATE OF CONNECTICUT; AND HON. KEVIN CRAMER, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF NORTH DAKOTA

    Senator Blumenthal. Thank you very, very much, Chairman 
Denham. And let me just say personally how grateful I am to you 
for personally giving me this opportunity to be with you today. 
And for me it is not only an honor to be here, but an 
auspicious day, because the chairman of our Commerce Committee 
in the United States Senate has announced that I will be taking 
over the Surface Transportation Subcommittee.
    My appearance here today is my first official act in that 
capacity, and I couldn't think of a more important way to mark 
that appointment than to indicate to you, Mr. Chairman, that I 
really look forward to working and cooperating with you. I know 
of your commitment to our Nation's roads, rails, all of our 
surface transportation modes. And this committee is one that I 
think will be a critical partner in that effort. And so I want 
to thank you and all the members of the committee for giving me 
this opportunity to be with you today.
    You mentioned very pointedly some of the recent tragedies 
that we have seen. Clearly, the 47 deaths in Lac-Megantic, the 
4 deaths in the Bronx, dozens injured in Bridgeport, other 
mishaps and mistakes on the rails around the country, indicate 
the need for action.
    And some of that action has to be investment in the kinds 
of mechanisms and tools that might have prevented some of those 
accidents and even deaths. In the Bronx we know that measures 
like automatic train control or alerters in the front and back 
of the train might well have prevented needless tragedy. We 
know in Bridgeport that more attention to the tracks and the 
ballast underlying those tracks, which was weakened and thereby 
contributed to the joints failing, might well have prevented 
those injuries and loss of property.
    All around the country, as well as in our region in the 
Northeast, where we have the busiest railroad in the country, 
there is evidence that our infrastructure is aging and 
decaying. And so, investment is necessary. We must think big 
and act big with a sense of urgency. Daily commuters, intercity 
passengers, rail personnel, folks living near or in communities 
along the tracks are demanding action, as are the businesses 
whose expansion depends on the reliable movement of freight. We 
have to make sure that our rails are safe and reliable, not 
only in the Northeast, but all around the country.
    And I am mindful that members of this committee represent 
geographic regions that depend on the rails. We know of it in 
Connecticut. My colleague, Congresswoman Esty, is here today, 
and has done, really, yeoman's work in leading the effort in 
our State. And I want to express my appreciation to her for 
what she has done in that regard.
    But the President's announcement today of a $302 billion 
infrastructure program, the possibility of additional 
investment, all are welcome. But more than money is necessary, 
there must be leadership and accountability. And it is 
necessary not only of the companies that run the railroads, but 
also of Government agencies that have responsibility for 
overseeing and scrutinizing them. That is why this hearing is 
so important, because you will be hearing from the Government 
officials, people whose lives are dedicated to public service 
and improving rail transportation, and have the opportunity to 
ask them the tough questions, which I hope you will, about 
rules that are necessary to impose greater safety and 
reliability on the rails.
    Ultimately, we are responsible for that effort. We, in 
public service, have to protect the public. And I know that you 
are dedicated to accomplishing those ends. We will be having 
our own hearing next week, and we will learn from what you 
elicit from these witnesses. And so I think this hearing is 
tremendously important. My hope is that it will lead to greater 
investment and appreciation of the importance of new bridges 
that carry our rail transportation, new track, new equipment, 
new cars, and signal control.
    Other measures, some of them highly capital intensive, but 
others much less expensive that can make the rails more safe 
and reliable. We not only have an obligation, but a tremendous 
opportunity because there is the potential for creating jobs, 
advancing economic growth through the jobs that are created, 
and making sure that products--that is freight, as well as 
people--are delivered on time, safely, and reliably. That is 
the challenge ahead.
    And, Mr. Chairman, I look forward to addressing that 
challenge, working with the President. America needs a 21st-
century infrastructure plan. The systems and structure that we 
have in place right now are inadequate to this century. We 
won't revise and renew and rebuild them overnight. But taking 
serious steps, which I know you are committed to do, is 
critically important to the future of our Nation. And I am 
proud and honored to join you in that effort. And again, my 
thanks for having me today.
    Mr. Denham. Thank you, Senator. Thanks for joining us.
    Mr. Cramer?
    Mr. Cramer. Thank you, Chairman Denham, Ranking Member 
Brown, and members of the committee. Thank you for the 
opportunity you have afforded me to participate in today's 
important hearing on rail safety.
    As a leading producer of many of our Nation's staple 
commodities and the beneficiaries of Amtrak's Empire Builder, 
the citizens of North Dakota have a particular interest in rail 
safety. While we have enjoyed a successful relationship for 
decades, really, partnerships between our carriers, our 
shippers, and our communities, the recent oil boom, as we all 
know, is providing some particular challenges, challenges I 
don't think we could have imagined, you know, 5 short years 
ago.
    The recent derailment of an agricultural products train 
that led to derailment of a train full of Bakken crude oil that 
led to explosions near the city of Casselton, North Dakota, was 
a stark reminder of our new reality.
    Later this year, North Dakota is expected to exceed 1 
million barrels of oil production per day, compared to fewer 
than 200,000 per day just 5 years ago.
    Prior to being elected to Congress, I spent about 10 years 
serving as an energy regulator on the North Dakota Public 
Service Commission, where we had jurisdiction over pipelines 
and, to some degree, railroads and associated facilities that 
moved that Bakken crude to market. And like most utility 
regulatory bodies, the North Dakota PSC has its roots as a 
railroad regulatory agency. And having a front-row seat at one 
of the world's hottest energy booms has been like watching the 
Gold Rush on a big screen TV. And it is technological 
advancements that have unlocked the oil from the rock, and 
that, combined with the high demand and high prices, has the 
Bakken rockin', as we like to say, but it has our 
transportation infrastructure lagging.
    The lack of pipeline capacity and the regulatory lag that 
accompanies large-scale development leaves trucks and trains as 
the primary means of transporting Bakken crude to market. Well 
over 70 percent of the Bakken crude is transported by rail with 
projections that it will be 90 percent in the near future. So 
the safe and efficient shipment of petroleum products is a 
legacy issue for North Dakota and for the United States.
    And as our rail pipeline and highway transportation 
infrastructure work to catch up to oil and gas production, it 
is important to remember no one in the supply chain benefits 
from accidents. A train derailment costs everybody. Property is 
damaged or lost, commerce is slowed, and public safety is 
compromised and confidence shaken. It ensures that 
stakeholders' interests are public, rather than parochial.
    As our economy advances, some advocate slowing the growth. 
I believe it is vital that Government keep pace with the 
economy, not control it by either regulatory delays or 
overreach. The agreement reached last week between the 
Department of Transportation and the American Association of 
Railroads is a good example of how Government and industry can 
partner in safety. I have encouraged Secretary Foxx, and want 
to reiterate my strong support for the sharing of data gathered 
by the Pipeline and Hazardous Materials Safety Administration 
during Operation Classification with industry experts. We are 
all in this together, and trust among partners is critical if 
we are to be successful.
    I hope the DOT can build upon this example, as industry and 
Government move forward with the next generation tank cars and 
other safety regulations. Two years and counting is too long 
for industry and communities to wait while the Federal 
bureaucracy sets rules for modifying and/or replacing the DOT-
111 tankers. Five years and counting for the President to 
approve the Keystone XL pipeline is embarrassingly long, and 
every day that line is not built exacerbates the problem.
    Mr. Chairman, time is of the essence. The trains run best 
when everyone pulls in the same direction. I sense goodwill on 
the part of all stakeholders, and I and my staff are willing to 
assist as we improve our energy transportation infrastructure.
    I thank you for the time.
    Mr. Denham. Representative Cramer, Senator Blumenthal, we 
thank both of you for joining us here today. I know that both 
of you have great interest and passion about solving some of 
the challenges that we have ahead of us, and working together 
on rail issues. So thank you for joining us today.
    Senator Blumenthal. Thank you.
    Mr. Denham. At this time I would like to invite our second 
panel up. And as you are coming up, I would also--we are doing 
this in the sake of trying to speed things along.
    Have your seats. And at this time I would like to welcome 
Ranking Member Brown for any opening statement she may have.
    Ms. Brown. Mr. Chairman, I am going to thank you for 
holding this hearing. And I would rather have my comments at 
the end. We have such a distinguished panel, and I understand 
we are on a tight timeline. So I would like for us to just get 
started, because we have such a distinguished group of 
panelists. I want to hear what they have to say.
    Mr. Denham. Thank you. You can see in a bipartisan fashion, 
everybody is moving along pretty quickly here today. So our 
first witnesses all came in under their time, Ms. Brown has 
yielded her time back, and I want to welcome each of you here 
today.
    Again, we want to get down to a lot of the questions that 
Members have here today, and certainly get some answers on how 
we can always continue to have a safer railroad.
    On our second panel here, I would like to welcome our 
witnesses: the Honorable Joseph Szabo, Administrator of the 
Federal Rail Administration; the Honorable Cynthia Quarterman, 
Administrator for the Pipeline and the Hazardous Materials 
Safety Administration; the Honorable Robert Sumwalt, Board 
Member of the National Transportation Safety Board; Mr. Michael 
Melaniphy, president and CEO of the American Public 
Transportation Association; Jack Gerard, president and CEO of 
the American Petroleum Institute; John Tolman, vice president 
and national legislative representative of the Brotherhood of 
Locomotive Engineers and Trainmen. And last, Ed Hamberger, 
president and CEO of the Association of American Railroads.
    I would like to, again, welcome each of you here today. I 
ask unanimous consent that our witnesses' full statements be 
included in the record.
    [No response.]
    Mr. Denham. Without objection, so ordered. Since your 
written testimony has been made part of the record, the 
subcommittee would request that your oral testimony be up to 5 
minutes.
    Mr. Szabo, you may proceed.

   TESTIMONY OF HON. JOSEPH C. SZABO, ADMINISTRATOR, FEDERAL 
     RAILROAD ADMINISTRATION; HON. CYNTHIA L. QUARTERMAN, 
    ADMINISTRATOR, PIPELINE AND HAZARDOUS MATERIALS SAFETY 
ADMINISTRATION; HON. ROBERT L. SUMWALT, BOARD MEMBER, NATIONAL 
 TRANSPORTATION SAFETY BOARD; MICHAEL P. MELANIPHY, PRESIDENT 
  AND CHIEF EXECUTIVE OFFICER, AMERICAN PUBLIC TRANSPORTATION 
  ASSOCIATION; JACK N. GERARD, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, AMERICAN PETROLEUM INSTITUTE; JOHN TOLMAN, VICE 
PRESIDENT AND NATIONAL LEGISLATIVE REPRESENTATIVE, BROTHERHOOD 
OF LOCOMOTIVE ENGINEERS AND TRAINMEN; AND EDWARD R. HAMBERGER, 
PRESIDENT AND CHIEF EXECUTIVE OFFICER, ASSOCIATION OF AMERICAN 
                           RAILROADS

    Mr. Szabo. Mr. Chairman, Ranking Member, and members of the 
subcommittee, thank you for this opportunity to testify.
    Over the past decade, train accidents and derailments have 
declined 47 percent. Highway rail grade crossing accidents are 
down 35 percent. And employee fatalities have been reduced by 
59 percent. Meanwhile, intermodal traffic surged towards a new 
record, Amtrak ridership reached all-time highs, while rail 
became the fastest-growing mode of public transportation.
    New records in safety have been achieved 4 of the past 5 
years, and preliminary data indicates a new all-time best for 
fiscal year 2013, better than fiscal year 2012, our safest year 
on record. But we owe it to the public to always do better. We 
expect it from ourselves at FRA, and we expect it from the 
industry we regulate.
    So, let me share with you my vision for driving the next 
generation of safety. And it consists of three pillars. First 
is continuing strong oversight and enforcement that is data-
driven. Second is advancing more proactive safety-based 
programs that identify and eliminate risk well in advance of an 
accident. And third is ensuring predictable and reliable 
Federal funding for rail in order to improve infrastructure 
through capital investments, and to develop new safety 
technologies through robust research and development.
    Our enforcement program is based upon strategic use of 
data. By using statistical modeling, we allocate our resources 
and execute our national inspection plan. It is a disciplined 
approach that has been the foundation of the dramatic drop in 
accidents over the past decade. But we also learn from every 
accident, and identify root causation in order to eliminate 
risk or identify need for additional regulation. In December we 
launched Operation Deep Dive, a comprehensive look at Metro-
North's entire operation, and we will share our report with 
Congress in March, after the information has been collected and 
analyzed.
    FRA is also part of a comprehensive strategy for ensuring 
the safe transportation of Bakken crude. In partnership with 
PHMSA, we are examining the entire system for crude delivery, 
from making sure crude is properly classified and packaged, to 
supporting PHMSA's rulemaking, to taking steps to further 
eliminate risk through rail operations. And I would like to 
recognize the AAR for committing to a series of immediate 
voluntary steps that will significantly enhance safety.
    A railroad safety advisory committee is currently engaged 
in three tasks regarding the safe movement of hazardous 
materials, train securement, and appropriate crew size, and 
they have a firm April 1st deadline to complete their work.
    Last month we revised our track safety standards to require 
railroads to adopt a more performance-based approach of rail 
inspections to maintain higher levels of safety. And as we work 
with the industry to install positive train control, we 
continue to make strides addressing human factors by taking 
steps to ensure the competency of locomotive engineers and 
conductors.
    But the next level of safety will come from advancing 
proactive safety-based programs like system safety for 
passenger railroads and risk reduction for freight railroads, 
including programs like Confidential Close Calls Reporting. 
While our data-based enforcement program has produced 
tremendous results, that data comes from accidents that have 
already happened. Close Calls allows us to gather data before 
an accident occurs, and develop risk mitigation strategies well 
in advance.
    New regulations will require railroads to do thorough risk 
analysis to identify hazards, and put in place customized 
plans, including a fatigue management plan to reduce risk. This 
push, over and above our traditional oversight and enforcement 
framework, will help us drive continuous safety improvement. 
But the sooner we put rail on par with other forms of 
transportation with a source of dedicated and predictable 
funding, the sooner we will be able to achieve the next 
generation of safety.
    Capital improvements and advancing next generation 
technology must be a part of the mix. And funding the National 
Cooperative Rail Research Program's workforce development 
efforts will ensure a pool of talent with the necessary skills 
and technical capacity.
    The additional funding for safety personnel, rail policy 
and research and development that we requested in our fiscal 
year 2014 budget, and that Congress recently appropriated, was 
a great first step.
    So I thank you, I look forward to working with you to drive 
the next generation of rail safety, and would be happy to 
answer any questions.
    Mr. Denham. Thank you.
    Ms. Quarterman, you may proceed.
    Ms. Quarterman. Good afternoon, Chairman Denham, Ranking 
Member Brown, and members of the subcommittee. Thank you for 
your leadership on advancing rail safety, and for the 
opportunity to appear here today to discuss PHMSA's 
comprehensive approach to ensure the safe transportation of 
crude by rail.
    Safety is the top priority of Secretary Foxx, the 
Department of Transportation, PHMSA, and all its sister modes. 
We all work diligently to protect the American people and the 
environment from hazardous materials incidents.
    As you know, energy production in the United States has 
increased dramatically. The use of rail to move crude has 
increased exponentially in the past few years, especially crude 
from the Bakken region. In fact, crude oil production in that 
area has elevated North Dakota to the second-largest oil-
producing State in the Nation. As recently as November of 2013, 
more than 600,000 barrels per day of oil produced in North 
Dakota was transported by rail, going from less than 11,000 
carloads in 2009 to more than 400,000 in 2013. This increase in 
crude shipments by rail and recent incidents underscore how 
important it is to be ever vigilant in protecting local 
communities and the environment.
    To deal with this challenge, the Department has taken a 
comprehensive approach to address the risks associated with 
transporting crude by rail. Together, PHMSA and FRA are 
focusing on both regulatory and nonregulatory methods to, in 
the first instance, prevent accidents from occurring by putting 
in place necessary operational controls and improving track 
integrity to lessen the likelihood of an incident.
    In the case an incident does occur, we are looking to 
mitigate the effects, and ensuring effective emergency 
response. PHMSA and FRA have been working together to issue 
guidance and rulemakings, participate in rail safety committees 
and public hearings, enhance inspection and enforcement, and 
coordinate with the industry and other agencies to improve 
public safety.
    As one example this past summer, PHMSA, FRA, and FMCSA 
teamed together to implement Operation Classification. This was 
an unprecedented initiative that--with DOT inspectors 
performing unannounced inspections and testing crude oil 
samples to verify the materials were properly characterized and 
classified for transportation.
    Last month, Secretary Foxx issued a Call to Action, asking 
crude oil and rail stakeholders to commit to taking immediate 
steps to improve the transportation of crude by rail. The 
Secretary identified some actions the Department was 
considering, and challenged those industries at the table to 
take preventive and mitigative actions themselves, immediately.
    To date, the Call to Action has been a success for safety. 
It is a first step along the way. We have received firm 
commitments from the rail and crude oil industries to take 
immediate actions to improve safety. Those actions include 
increased track inspections to prevent derailments, and a 
litany of mitigative steps to reduce speed, use alternative 
routes, improve braking, improve crude oil testing and 
classification, and improve emergency responder preparedness 
and training.
    In addition to regulatory and nonregulatory efforts to 
improve rail safety, we have increased our efforts to improve 
the public awareness and understanding of hazardous materials 
regulatory requirements. Our efforts include enforcement and 
outreach activities focused on proper classification and 
characterization, safety and security planning, and ensuring 
emergency responders and the public area aware of hazardous 
materials transportation requirements.
    As I have stated earlier, PHMSA is committed to improving 
transportation safety. And I believe our comprehensive approach 
to addressing safety is working. I truly believe that our 
aggressive efforts, first efforts, will help to prevent and 
mitigate accidents, and move us closer to our goal of zero 
deaths and injuries.
    Thank you again for the opportunity to speak today. We look 
forward to continuing to work with Congress to address rail 
safety issues, specifically those dealing with the 
transportation of flammable liquids. I would be pleased to 
answer any questions the subcommittee may have.
    Mr. Denham. Thank you, Ms. Quarterman.
    Mr. Sumwalt.
    Mr. Sumwalt. Good afternoon, Chairman Denham, Ranking 
Member Brown, and members of the subcommittee.
    Rail safety has been in the spotlight for several months, 
especially since the July accident in Lac-Megantic, Quebec. In 
that accident, a crude oil derailment resulted in the death of 
47 people and the destruction of a town center. The 
Transportation Safety Board of Canada is leading that 
investigation, and the NTSB is assisting.
    As Congressman Cramer mentioned, on December the 30th, just 
one-half mile outside of Casselton, North Dakota, 20 cars of a 
BNSF crude oil train derailed, spilling about one-half million 
gallons of crude oil and igniting a fire that burned for more 
than 24 hours. Fourteen hundred people were evacuated from 
their homes and businesses.
    In cooperation with the TSB of Canada, we issued 
recommendations last month related to the Lac-Megantic 
accident, calling for proper classification of hazardous 
materials, a review of routes for these trains, and development 
of comprehensive response plans for worst case scenario 
accidents. We believe these recommendations are necessary, as 
hazardous material transportation by rail continues to grow 
exponentially.
    For example, crude oil and ethanol transport are both up 
over 400 percent since 2005. Many times these products are 
transported in unit trains, meaning that the trains have, on 
average, about 100 loaded tank cars of the same flammable 
product. That is over 3 million gallons of hazardous material 
per train. Along these lines, we are encouraged by the 
voluntary measures announced last week by the AAR and the DOT.
    Let me turn now to discussing tank car safety. As it 
relates to crashworthiness, the NTSB has longstanding concerns 
about the current regulatory specifications for DOT-111 tank 
cars. Quite simply, continued use of current regulatory 
specifications for these tank cars to ship flammable liquids 
poses an unacceptable public risk. Following a 2009 ethanol 
train accident in Illinois, we called on PHMSA to improve tank 
car design to prevent breaches, or to mitigate a breach, if one 
occurs.
    In response to these concerns, beginning in October 2011 
DOT-111 tank cars have been built to a nonregulatory industry 
spec known as CPC-1232. This standard is meant to replace the 
so-called legacy DOT-111 cars, but the NTSB is not convinced 
that these modifications offer sufficient improvements. An 
improved Federal standard would provide the certainty needed on 
tank car design. Improvements like enhanced head shields, tank 
jackets, and increased tank shell thickness could all improve 
tank car crashworthiness.
    I would like to now switch to discussing passenger rail 
safety. As mentioned by Senator Blumenthal, the NTSB is 
investigating four accidents involving the Metro-North commuter 
railroad in New York and Connecticut. Last week we issued three 
recommendations to Metro-North that we feel are immediately 
needed to improve the safety of their operations. As our work 
continues on these four investigations, we are paying close 
attention to Metro-North's safety culture, to the 
crashworthiness of passenger rail cars, to worker protection, 
and to track inspection and maintenance.
    Lastly, we believe that positive train control, or PTC, 
which the NTSB has called for since the 1970s, is an important 
component in improving both passenger rail and freight rail 
safety. As you know, Congress has imposed a deadline for 
December 2015 for implementing PTC. Last year, the NTSB shone 
the spotlight on this issue at a forum on PTC. Many railroads 
indicated then that they would not meet the deadline.
    We at the NTSB feel that there should be a transparent 
accounting for actions taken and for those not taken to meet 
the deadline, so that regulators and policymakers can make 
informed decisions. After all, the NTSB's files are filled with 
accidents that could have been prevented through PTC. For each 
and every day that PTC is delayed, the risk of an accident 
remains.
    For PTC to reach the greatest safety potential, it must be 
implemented, subject to the requirements specified by the Rail 
Safety Improvement Act. After all, lives depend on it.
    Thank you. This concludes my testimony.
    Mr. Denham. Thank you, Mr. Sumwalt.
    Mr. Melaniphy.
    Mr. Melaniphy. Thank you, Chairman Denham, Ranking Member 
Brown, members of the subcommittee. Thank you for the 
opportunity to testify today. My written comments have more 
detail than I will be presenting in the oral testimony.
    APTA's commuter railroads are unequivocally committed to 
safety. Passenger and employee safety is the number one 
priority for this Nation's commuter railroads. Public 
transportation is one of the safest modes of transportation, 
and the commuter and passenger rail, specifically, are among 
the safest ways to travel. The FRA recently released statistics 
for the railroad industry, saying that since fiscal year 2004 
train accidents and derailments have each declined 47 percent, 
and highway rail grade crossing accidents have declined 35 
percent.
    Commuter rail ridership has grown 42 percent since 1990, 
going from about 328 million rides to more than 466 million 
rides taken on commuter rail in 2012. Over 10 years, fatalities 
have climbed by--declined by 44 percent. That said, we are 
always looking for ways to improve safety.
    The growth of commuter rail ridership makes safety more 
important than ever. As we work to improve safety, we need 
comprehensive programs to address safety in all aspects of our 
operating environment. Any single technology or practice is 
just one part of an integrated approach to system safety. An 
effective safety culture is as important as any specific 
procedure or technology. It begins with a commitment to the 
organization's senior leadership, and working with the 
employees and labor to adopt common safety goals and 
expectations.
    In the 1990s, APTA developed the Passenger Rail Equipment 
Safety Standards Program, commonly known as the PRESS Program, 
to develop safety standards for commuter rail cars. These 
standards led to the design of crumple zones that protect 
passengers in a crash, and have helped save lives.
    APTA, working in cooperation with the FRA, FTA, and TSA, 
have developed more than 270 standards and recommended 
practices, 71 of which address particular safety needs for the 
main line rail equipment, and over 111 for rail transit alone. 
Standards define safe operating practices, inspection, and 
maintenance of equipment, and other areas, as well.
    In 1989, APTA initiated the Rail Safety Audit Program. All 
of the Nation's commuter railroads had developed system safety 
management plans. Under the program, each agency develops 
comprehensive protocols for system safety. Agencies are then 
audited on a regular basis to review compliance with the 
practices and goals established by the plan.
    Further, APTA provides peer review panels. An agency can 
request a team of industry professionals who will visit the 
agency, review the specific operating, security, or safety 
issues, and then make action recommendations. APTA also 
partners with the FRA, AAR, and labor to help design, build, 
and operate safe transportation systems. APTA works with the 
FRA Rail Safety Advisory Committee and our own standing 
committees, who meet regularly to discuss issues, effective 
practices, and lessons learned. These findings are then shared 
at our APTA conferences.
    Finally, APTA's commuter railroads face big challenges on 
the implementation of positive train control, PTC. I want to 
emphasize that APTA's commuter rail agencies support and are 
fully committed to implementing PTC systems on all of their 
railroads.
    Like the freight railroads at AAR, commuter railroads do 
not believe they can fully implement PTC on the entire commuter 
rail system by the 2015 deadline in the current law. We went to 
Congress in 2010 with this message, not wanting to wait until 
the deadline was imminent. We asked for Federal funding to help 
publicly fund commuter railroads--the publicly funded commuter 
railroads, to help them pay for some of the nearly $3 billion 
in implementation costs. We sought help from the Federal 
Communications Commission to obtain required radio spectrum, 
and we asked Congress to provide a way to extend the 2015 
deadline on commuter railroads unable to implement PTC by that 
deadline despite good faith efforts, and due to systems out of 
their control. We continue to seek your help with these issues.
    There is no ready-made off-the-shelf product for this new 
technology. And the Nation will not be well served by shutting 
down important commuter railroad operations if they are unable 
to implement PTC by the deadline. We support the use of PTC, 
but urge Congress to establish a more realistic timeline for 
implementation.
    Thank you for the opportunity to testify. We are happy to 
take questions later on.
    Mr. Denham. Thank you, Mr. Melaniphy.
    Mr. Gerard, you may proceed.
    Mr. Gerard. Thank you, Chairman Denham and Ranking Member 
Brown. Thank you for the opportunity to be here today to 
testify in regards to this most important issue of rail safety. 
As mentioned earlier, I am Jack Gerard, president and CEO of 
the American Petroleum Institute. We represent 590 companies 
that provide most of the energy that our Nation consumes.
    The revolution in North American energy development has 
been made possible by technological breakthroughs and decades-
old methods of energy development, which has set this Nation on 
a path to energy security, a concept unthinkable just a few 
short years ago. The energy policies we choose today will 
determine if our Nation will continue its march towards global 
energy leadership, a unique and once-in-a-generation 
opportunity.
    America's dramatic increase in domestic energy production 
has fundamentally altered the global energy markets and, more 
broadly, the geopolitical landscape for decades to come, all 
while providing a much-needed boost to our economy. In order to 
achieve our Nation's full potential as a global energy leader, 
all of us have to work together to ensure that our energy 
infrastructure is capable of safely, reliably, and efficiently 
transporting ever-increasing amounts of domestically produced 
energy, whether by truck, barge, pipeline, or, the focus of 
today's hearing, by rail.
    Meaningful and lasting improvement in rail safety will only 
come from a holistic and collaborative approach to accident 
prevention, mitigation, and response. And the oil and natural 
gas industry will continue to work with our colleagues in 
Government, the rail industry, and others in continual safety 
improvement.
    The memorandum of understanding released last week between 
the railroad industry and the Department of Transportation, 
which outlines operational changes to improve rail safety, is 
an important step in our shared goal of improving the safety of 
America's freight rail system. While it is true that 99.997 
percent of hazardous materials transported by rail reach their 
destinations without incident, the oil and natural gas industry 
is committed to getting to zero rail incidents because, when it 
comes to safety, the only number that matters is zero 
incidents.
    Getting to zero will take the long-term commitment to 
working collaboratively with all stakeholders, and applying all 
of our best science, research, and real-world data in a 
thoughtful and deliberate manner. Being a safe steward of our 
Nation's energy resources and providing leadership in raising 
the bar on industry performance isn't new to the oil and gas 
sector.
    For 90 years, API has been the world leader in developing 
and improving equipment and operating standards--now 600 and 
counting--for the oil and natural gas industry through a 
collaborative process that involves all stakeholders, as well 
as Government regulators. This process is credited by the 
American National Standards Institute, or ANSI, which is the 
same organization that accredits the Government's national 
laboratories. We have already assembled the best experts from 
our industry, the railroads, scientists, and engineers, and 
others to tackle some of the tough issues raised by the recent 
rail incidents involving the transport of crude oil.
    PHMSA also committed to join our effort to develop a 
comprehensive standard that addresses the classification of 
crude oil to ensure we are moving that product in the safest 
manner possible. This includes possible safety improvements 
from material characterization, transport classification, and 
quantity measurement of crude oil, based on the best available 
science and data. This is part of our industry's longstanding 
commitment to safety.
    In 2011, the oil and natural gas industry helped lead the 
multi-industry effort that led to significant improvements in 
the design of our tank cars. And we move forward voluntarily 
with those improvements so that this year we are now 
approaching 40 percent of the crude tank cars in use by our 
industry will exceed the current Federal safety standard.
    In the final analysis, the women and men of the rail and 
oil and natural gas industries, as well as the communities 
traversed by our Nation's freight rails, deserve our laser 
focus on this challenge. Our potential as a global energy 
leader is rooted in our ability to safely transport our game-
changing energy resources safely every time, be it by truck, 
barge, pipeline, or rail.
    We look forward to continuing to work with our colleagues 
in the Government, in the rail industry, and elsewhere, and 
look forward to working with the committee. Thank you, Mr. 
Chairman.
    Mr. Denham. Thank you, Mr. Gerard.
    Mr. Tolman.
    Mr. Tolman. Good afternoon, Chairman Denham, Ranking Member 
Brown, members of the subcommittee. I want to sincerely thank 
you for the opportunity to speak about our views on rail 
safety.
    Whenever there is a major rail accident, we often find 
ourselves sitting in front of the T&I Committee with all the 
stakeholders--labor, Government, and the railroads--trying to 
find out how we can best prevent these accidents and other 
accidents into the future. After listening to the previous 
witnesses, I want to begin by addressing the elephant in the 
room on the issue of rail safety, and that is fatigue.
    Addressing the issue of fatigue could drastically improve 
safety in the railroad industry. The majority of our locomotive 
engineers and conductors in freight service work on call 24/7, 
365 days a year, and receive as little as an hour-and-a-half 
notice before they have to go to work for a 12-hour shift.
    The Rail Safety Improvement Act could have addressed this 
fear by providing operating employees with predictable 
schedules, calling windows, and train lineups that they could 
rely on, so they could plan to sleep accordingly. I continue to 
believe these similar ideas will help alleviate fatigue in the 
industry. But nearly 5\1/2\ years after the enactment of the 
Rail Safety Improvement Act, the industry has yet to engage 
labor in any serious discussion about fatigue.
    On the issue of PTC, it is apparent that even numerous PTC-
preventable fatal accidents and an Act of Congress cannot sway 
the railroads to install PTC. I often wonder, if we could turn 
back the clock, how many lives we could have saved. Those who 
have given their lives deserve to be honored by saying enough 
is enough with the delay and foot-dragging. The carriers have 
had ample time to prepare for the implementation of PTC since 
the passage of the Rail Safety Improvement Act. We believe that 
there should be no blanket delay of its implementation. PTC was 
suggested by the National Transportation Safety Board 46 years 
ago.
    We also reject the notion that PTC provides a justification 
for reducing the crew size, as the railroads contend. PTC 
should not be a pretext to eliminating a member of the train 
crew. It is simply another safety overlay of operating systems. 
The BLET has spent significant time and resources countering 
these and other efforts to understaff train crew size. A one-
member crew is not only unsafe, but it is also inefficient, and 
also can be deadly, as we found out in Quebec. This issue is 
before your subcommittee in the form of H.R. 3040, which was 
introduced by Congressman Michaud last summer, which would 
require two federally certified train crewmembers in every 
freight locomotive, and has 60 cosponsors.
    Another simple and old, inexpensive technology is an 
alerter. It is a low-tech alarm that could automatically apply 
the train's brakes if an engineer is incapacitated. While the 
alerters are in most locomotive trains today, there are 
exceptions to their requirement within the existing 
regulations. This, to me, is inexcusable, not to be used in all 
locomotives and control cabs today.
    Another issue we would like to touch upon is the 
installation of inward-facing cameras in the cabs of all 
locomotives. This will have absolutely no effect on safety. The 
proponents of these cameras suggest that video surveillance of 
locomotive engineers and conductors in the workplace will 
somehow abate fatigue and foster rule compliance. However, it 
is absurd to suggest that inward-facing cameras are a tool to 
reduce fatigue. In the absence of operational changes to reduce 
the likelihood that the locomotive engineer or conductor will 
be fatigued while operating a train, these cameras will do 
nothing but document that the crewmembers did not fall asleep.
    Last, but certainly not least in our minds, locomotives on 
our Nation's railroads need to be secure and equipped with 
locking mechanisms that keep train crews safe, not only when a 
train is unattended, but also provides ready ingress and egress 
by crews who perform their jobs safely, and the ability to 
escape quickly in an emergency.
    The men and women working on our Nation's railroads are 
professionals that are dedicated to safety, and would like to 
be partners on improvement.
    I would like to end by paraphrasing a quote from Oliver 
Wendell Holmes, when he was talking about progress. He said, 
``The great thing in this world is not so much where we stand 
as in what direction we are moving.'' I challenge the railroads 
and the Government to work aggressively to prevent the 
accidents of tomorrow by working with labor to make sure that 
the necessary changes in the industry on fatigue, PTC, 
securement, and alerters. Thank you.
    Mr. Denham. Thank you, Mr. Tolman.
    Mr. Hamberger.
    Mr. Hamberger. Thank you, Mr. Chairman, Ranking Member 
Brown, members of the subcommittee. I agreed with a couple of 
things Mr. Tolman said, most importantly of which is our 
employee base is the most important part of our industry, and 
we thank them for their professionalism and dedication every 
day that they move freight around this country.
    On behalf of the AAR, thank you for the opportunity to 
discuss rail safety. My comments this afternoon will focus on 
two issues: positive train control and moving energy by rail. 
But I would be delighted to engage in discussion on other 
issues that have been raised.
    As Mr. Gerard pointed out, the development of new crude oil 
resources in the United States represents a tremendous 
opportunity for our Nation to move toward energy independence, 
something we have been talking about for decades, and it is 
within sight. This means less reliance on oil imports from 
unstable foreign sources, more economic development all over 
the country, thousands of jobs, tens of billions of dollars in 
savings in our Nation's trade deficit.
    One thing I would like to emphasize: Our Nation cannot take 
full advantage of new crude oil resources without a safe, 
efficient, financially health freight rail system. And notice I 
started with safe because, unfortunately, with a few high-
profile accidents starting last July in Quebec, there is some 
concern and doubt about whether or not we can move crude 
safely. Let me say for the record right here the answer to that 
question is yes, we can. We do move it safely. Mr. Gerard 
pointed out the statistic, 99.997 percent of the time, origin 
to destination, without an accidental release.
    Having said that, we too believe that 100 percent safety is 
the goal. And that is why we were pleased to get together with 
Secretary Foxx, Administrator Quarterman and Szabo last Friday 
to announce even additional steps that we can take to try to 
make sure that the confidence of the public, your confidence, 
the confidence of State and local elected officials is not 
shaken by these high-profile accidents.
    Under the agreement, tracks on which trains carry large 
amounts of crude oil will be subject to more frequent track 
inspections than required by statute or regulation. Speed 
restrictions, required use of advanced braking technologies, 
and the use of a sophisticated routing model, which we 
currently use for our most hazardous chemicals, will now be 
used for crude to assess the safest and most secure routes.
    I would be remiss not to point out, as I have in the past, 
that railroads also prevent accidents by investing back into 
the infrastructure. This year will be $26 billion. A well-
maintained railroad is a safe railroad.
    All of these steps are meant toward addressing prevention. 
The first way to reduce risk? You prevent the accident. But the 
second big bucket is mitigation. And there we believe that you 
address two issues.
    One is the tank car itself, and then what goes into the 
tank car. We joined the NTSB in questioning and, in fact, 
saying that the CPC-1232, the tank car standard that was 
adopted voluntarily by our industry, API, and others in October 
of 2011, can itself be improved upon. We believe that it should 
have thicker steel shelves. It should have an outer jacket. It 
should have thermal wrapping. It should have protection for top 
fittings and bottom fittings. It should have full height head 
shields, among others. We believe that that is ready to go, and 
urge PHMSA to move quickly on its rulemaking.
    We also believe that the existing legacy cars need to 
either be outfitted--retrofitted, or phased out of service for 
flammable liquids as quickly as possible.
    The third leg of dealing with risk is emergency response. 
Over the past years--last year, 22,000 emergency responders 
were trained by our industry: 20,000 in their home communities; 
2,000 out at Pueblo. Some of you have had the opportunity to be 
there, Transportation Technology Center, 2,000 there. We are 
committed to doing more on that with our agreement with the 
Secretary.
    Let me quickly turn to PTC. I hope to have an update for 
you. We believe again, with the NTSB, it needs to be very 
transparent. I will submit for the record our update through 
2013. We have made great progress. We hope to have 24,000 miles 
in operation by 2015. But I must tell you about a disaster at 
the Federal Communication Commission.
    We are being told not to install any communication poles 
since last May--22,000 poles. These are not on Native American 
property. These are on our rights of way, 97 percent of them, 
18-inch diameter poles about 20, 40, maybe 50 feet high, 10 
feet into the ground. Very minimal chance of any cultural or 
historic impact. We think that there should be an exemption for 
that. And, unfortunately, the FCC has placed adherence to 
bureaucratic process above enhancing public safety.
    And I apologize for being 15 seconds over. Thank you, Mr. 
Chairman.
    Mr. Denham. Thank you, Mr. Hamberger. And I would ask our 
witnesses' indulgence. Our vote schedule has moved up now, so 
we are looking at taking a break when--we will probably go a 
little after the buzzer goes, but we are planning on coming 
back after that vote series. It is a short vote series, so we 
would ask--if you can stay, we would ask you to stay, so--we 
have a number of very important questions.
    Let me start by a frustration that I have. Mr. Szabo, I 
know that we are here to talk about a very important rail 
safety issue, an issue that you and I had started discussions 
on last November. But during that same discussion, we also had 
a discussion about high-speed rail. And during that discussion 
you said Metro-North was a high priority, we had to address the 
situation, and you needed some time to work on that. So, at 
your request, I moved that high-speed rail meeting 6 weeks to 
facilitate your schedule.
    Now, I got to tell you the frustration that I felt from my 
Democrat colleagues that wanted this hearing to happen. But we 
knew full well in November that, by moving that high-speed rail 
hearing, we were also moving the timeline of this hearing. You 
failed, after 6 weeks' notice, to attend that hearing. And you 
can obviously sense my frustration with that.
    But going deeper than that, the bigger frustration that I 
have is that you also communicated with me on what the funding 
level would be for high-speed rail in California. Now, I 
believe very strong in credibility. I believe very strong that 
actions speak stronger than words. And if your actions are 
going to change from what you previously committed or told me, 
or what your staff had also committed to our staff, if there is 
going to be a change, I expect you to give me a phone call, not 
have a communication between press releases between the two of 
us.
    So, as we move forward, if you have changes on something 
you have committed to me or to this committee, I would expect a 
phone call, rather than a press release.
    Mr. Szabo. Do I have the opportunity to respond, Mr. 
Chairman? I mean is that a----
    Mr. Denham. I am not looking for a response----
    Mr. Szabo. I think it is only appropriate.
    Mr. Denham. It is----
    Mr. Szabo. Yes--no----
    Mr. Denham. I will allow you a few seconds, yes.
    Mr. Szabo. Please, if I may. I regret you are frustrated. 
But, as you know, when we talked, when that date was set, I 
said my schedule would allow me to be available on the 14th of 
January. When it moved to the 15th, we made very clear 
immediately to your staff that I would be on travel speaking to 
550 shippers, including the crude rail industry.
    Mr. Denham. I understand. You also had a commitment today--
--
    Mr. Szabo. You and I----
    Mr. Denham [continuing]. And I appreciate you canceling 
that commitment----
    Mr. Szabo. You and I----
    Mr. Denham [continuing]. For this hearing.
    Mr. Szabo [continuing]. Had a conversation in advance of 
that hearing, where I let you know that I would not be 
available. So, you know, it wasn't like----
    Mr. Denham. I am not going to go back and forth with you 
here.
    Mr. Szabo [continuing]. There was a surprise.
    Mr. Denham. The issue is not whether or not you committed 
to this hearing. The issue was we held this hearing up 6 weeks, 
which then forced us to move this hearing today. So you have 
held up our committee, based on your schedule that we moved it 
6 weeks for you.
    Again, the bigger issue here, though, is when you commit 
something to this committee, as you did on the high-speed rail 
funding issue, that I at least get a phone call because you 
have now changed that funding formula for California and for--
--
    Mr. Szabo. We didn't change the funding formula. But if 
that is what you want, I have no problem. You know, staff gave 
a personal briefing to your staff. We have continued to 
communicate almost daily with your staff. I don't know how much 
more communication we can do.
    Mr. Denham. You have got my cell phone. You can give me a 
call any time if you have----
    Mr. Szabo. I don't, but I will sure--I will--I would be 
happy to take it from you.
    Mr. Denham. Thank you. Ms. Quarterman----
    Mr. Szabo. Mr. Chairman, to say that you moved it at my 
request--now, you and I did have a conversation. But I also 
made it clear that because you were calling this hearing, 
scheduling it--2 days was when the notice came out, 2 days 
after the Metro-North tragedy--that it wasn't just me. My 
agency could not be available. And I also said that if you 
would just go to the 16th of December, 1 more week, 1 more 
week, I would be happy to be available.
    Mr. Denham. Thank you. Again, my issue is on grant 
agreements. You have changed the grant agreement several times 
now.
    Mr. Szabo. No, in fact----
    Mr. Denham. You had made the commitment to me that it 
wasn't going to happen.
    Mr. Szabo. The----
    Mr. Denham. If you have to change something, I expect a 
phone call. That is it.
    Mr. Szabo. We will keep talking.
    Mr. Denham. Ms. Quarterman, I appreciate our conversation 
yesterday. And yesterday also DOT issued an emergency order 
regarding crude oil movement and classification. That order 
mandates the proper testing conducted with sufficient frequency 
and quality and classification of petroleum products prior to 
being offered into transportation.
    Can you please clarify what is considered sufficient 
frequency, and what quality, sufficient quality, would be?
    Ms. Quarterman. Thank you, Mr. Chairman. We did talk about 
this Executive order, or emergency order, yesterday, when we 
met. And we specifically left those terms to be determined by 
the shippers based on their operations. We did not want to say, 
in each and every instance before a shipment occurs, that 
testing needed to occur. It may be that a shipper, if they are 
a producer, are producing from one play and that play is 
inconsistent, and over time the test results would be the same. 
And another shipper might have a different experience.
    We are happy to talk further with those shippers who may 
have questions and needed clarification, but that was the 
intent.
    Mr. Denham. Thank you. And can you also give us a rough 
timeframe for when you expect to issue the proposed rule for 
the DOT-111 tank car standards?
    Ms. Quarterman. Absolutely. I can tell you that the staff 
of PHMSA and FRA have been in sequestration over the past 
several weeks, drafting the terms of the notice of proposed 
rulemaking. As you know, we got comments at December 5th of 
last year; over 100,000 individuals sent us comments. We are 
very, very close in our drafting, but there are processes that 
follow our process within PHMSA and FRA.
    Mr. Denham. When do you expect a final rule?
    Ms. Quarterman. I would like to see, well, a final rule. 
Are we talking about a----
    Mr. Denham. Basic timeframe.
    Ms. Quarterman. A proposed rulemaking we want to see as 
soon as possible this year. A final rule will depend upon the 
comments that we get back.
    Mr. Denham. Thank you. And one final question and then this 
is a question I have for others as well. You know. You and I 
talked yesterday about the manufacturing capacities and the 
current backlog of tank cars as somewhere between 50,000 and 
60,000 tank cars.
    That backlog is installed since, well, not having standards 
to build those. Could you explain from your standpoint what you 
think that manufacturing capacity could be as far as moving 
forward? I know we discussed it in detail yesterday some of 
those challenges we have and those 111 backlog and how we're 
going to move forward.
    Ms. Quarterman. I think that question is probably best 
answered by the railroads. I don't think we discussed that 
yesterday.
    Mr. Denham. Let me come back to that question. How much 
crude is spilled on an average derailment?
    Ms. Quarterman. I don't know off the top of my head. We 
will have to get that information for you.
    Mr. Denham. OK. In the sake of time, I know votes are going 
to get called here shortly. I yield the rest of my time or I 
yield back, and now recognize Ranking Member Brown.
    Ms. Brown. Thank you, Mr. Chairman, and let me just say, 
once again, thank you for holding this hearing. The Democrats 
on this committee sent a letter requesting this hearing. This 
is a very important hearing and we waited for a very long time 
to have this hearing. And this hearing is on safety of the rail 
industry; and, I asked so many questions, but I know my 
colleagues have a lot of questions. But I guess I want to start 
with Mr. Gerard.
    You mentioned, and I am interested in, you know, we are all 
together as one team, one fight, and we have these 
stakeholders. And in talking to some of the stakeholders, they 
have indicated they could not get the information on the 
composition of the crude to inform the first responders so we'd 
know what's on the tank cars. Can you tell me what kind of 
sharing that you had with the other agencies, like, you know, 
the other stakeholders, whether we're talking about the 
Department of Transportation or PHMSA?
    Mr. Gerard. Yeah. I think there's a couple of things there, 
Congresswoman. Thank you for the question.
    The first is we believe we should approach his challenge of 
safety holistically. So we look at it for prevention to 
mitigation and then to response. The piece that you are talking 
about is the mitigation piece in terms of knowing exactly what 
the test results show, how we use those for classification to 
make sure we are hauling our product in the appropriately 
approved package.
    The current regulatory regime requires us to seek a 
classification wherein Class III is flammable liquid is the way 
we classify today. And then we look at boiling point and flash 
point under the current regulatory regime to decide then which 
package it goes in, either packaging I, II, or III. And so we 
provide that testing as an industry.
    And, back to Chairman Denham's question, the emergency 
order that was issued, yesterday, from our standpoint actually 
creates confusion, and part of it goes to the very question you 
asked. The current regulations requires to test and classify. 
What we have done as an industry is we have put together under 
our standard setting group the best minds to make and to set a 
standard, if you will. How often should we test? How do we make 
sure we are looking at the right issues?
    Today, we are looking at the question of, like I say, 
flashpoint and boiling point. Are there other questions that 
should be considered? This is an improved process where we 
collaborate with the regulator. We collaborate under this 
accredited process with anybody who would like to participate. 
So we welcome all to come join us, because these are questions 
we need to find the answers to and decide are there other 
issues we need to look at.
    The emergency order, unfortunately, says that we need to 
look at proper testing with sufficient frequency and quality. 
We don't know what that means, and yet in the same order it 
reminds us there are criminal penalties and $175,000 in 
infraction attached to this. I guarantee there is an impact, a 
chilling effect, if you will, to our industry that's trying to 
collaborate to come up with the right answers to make sure we 
are testing and classifying this correctly.
    Ms. Brown. DOT is saying that they are not getting the 
information that they need from you. Do your members share that 
information with them?
    Mr. Gerard. Yes, I believe they are. I know there has been 
some frustration there and I understand that frustration. As a 
trade association, we don't collect all that data. Our members 
do a lot of tests on a lot of different things. We, 
historically, have not collected it. So I can't show up and 
deliver that in one package, but we have encouraged the 
meetings that we have been part of where our members have come 
and given their information. And we encourage them, 
particularly, if it is proprietary information, to work with 
the regulator to share that information so they can answer 
their questions.
    Ms. Brown. DOT, Mr. Szabo, do you want to respond to that?
    [No response.]
    Ms. Brown. Ms. Quarterman?
    Ms. Quarterman. Sure. What would you like me to respond to?
    Ms. Brown. The information that you need from the petroleum 
industry.
    Ms. Quarterman. Yes, the reason for the Executive order or 
the emergency order yesterday was that we had heard concerns 
from industry that they were unsure how to respond to our 
regulations. And we wanted to be clear that we would identify 
those characteristics of crude that we would want them to test 
for that--clarify our existing rules. These are the things that 
you should be testing for. And the reason why that is so 
important in this particular area is because ordinarily you 
have products on a railroad that are being shipped that are 
known commodities.
    There may be anhydrous ammonia or liquified natural gas, or 
chlorine. And they are known commodities. When you talk about 
petroleum crude oil, you are talking about something that is an 
organic product that's being mined from the earth. When it 
comes from the earth, we don't know what we are getting. You 
know. Gas comes from the earth, normally occurring radioactive 
materials come from the earth. Oil comes from the earth, 
sulfur. So before you take something from production and 
immediately put it into a tank car, you need to know what you 
have there so you can look, characterize it so you can look at 
our table--you have nine classifications of materials--and 
determine which one of these nine is this.
    Is it a petroleum product that is a flammable liquid? Is it 
a flammable gas? Is it a corrosive or poisonous product? And 
then you move on from there to determine does it have--maybe it 
has a multiple number of constituents, and you have to 
determine what the appropriate packaging is for that.
    Mr. Denham. Thank you, Ms. Quarterman.
    Ms. Quarterman. Thank you.
    Mr. Denham. Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman. And first of all I 
just want to say I am very encouraged by the safety and best 
practices, both the railroads and the oil and gas industry have 
maintained their 99.9977 percent of all rail hazmat shipments 
reach their destination, as was noted, without a release caused 
by a train accident. That's a strong safety record and 
something that you should be proud of.
    Even more, you have gone ahead and voluntarily agreed to 
additional limitations. So I want to say that to start. The 
safety alert issued by the Pipeline and Hazardous Materials 
Safety Administration on January 2nd regarding operation 
classification states that PHMSA will share the results of 
these tests with interested parties as they become available.
    Ms. Quarterman, in the spirit of collaboration, have you 
shared the information from operation classification with 
interested parties? If you have not yet shared it, when do you 
plan on sharing it? And then could you therefore give any 
examples of how you are working in good faith with the private 
industry to improve safety?
    Ms. Quarterman. The short answer to that question is yes. 
We have had a series of meetings since our meeting with the 
rail and crude oil industries where we brought in API and some 
other organizations and individual shippers and asked them if 
they could tell us about the attributes of the crude as well as 
about what they were doing to test and characterize that crude.
    During those conversations we did share with them on a 
gross level the kinds of information we were finding in terms 
of the attribute to the crude, and asked them for the same. We 
also--I have talked to several companies, CEOs of several 
companies that are shipping Bakken crude. Many of them have 
been willing to talk on an individual basis--not as part of a 
bigger group--about what they are finding with respect to the 
characteristics of that crude, including those who are subject 
to current enforcement actions.
    So I really appreciate those individual companies who have 
been willing to step up and provide information. So, yes, we 
have been providing that information.
    Mr. Barletta. And through the course of carrying out 
operation classifications issued to-date, three notices of 
violation for misclassifying crude oil. In light of these 
finds, are you finding that companies are free to come forward 
and voluntarily share their testing and classification data?
    Ms. Quarterman. No. Actually not. As I mentioned, during 
the conversations I've had with some of those companies that 
were part of that enforcement push, they did come and share 
with us openly what the characteristics of their crude were. 
So, no.
    Mr. Barletta. I think we can all agree that the proper 
classification of materials in these tank cars is critical to 
safety. I know the DOT recently issued new testing requirements 
for crude by rail.
    Mr. Gerard, do your member companies have specific enough 
instructions to comply with Secretary Foxx's emergency 
restriction? And, if not, what areas require further 
classification?
    Mr. Gerard. Well I think a couple things, Congressman, and 
I appreciate the question. Because the emergency order we saw 
last night, the response we have gotten in the last 20 hours or 
so, we have had a chance to look at it as one of confusion. 
And, let me clarify one thing that Ms. Quarterman said.
    Our companies know what they have and have tested. I think, 
earlier, there may have been some doubt or some question left: 
Do we know what it is. We've been testing this for years. We 
understand what it is. We know how to test it consistent with 
the current guidelines. And, part of this working group we have 
is to look at other determinants, other characteristics, to see 
if there's other ways to test it. But I think in light of this 
we need to sit down with the Administrator and others now and 
seek clarification on exactly what it is they would like us to 
do in light of this order.
    I think it is very important so we understand their 
expectation, so we can satisfy that expectation. And I would 
hope it would be much more collaborative as we move forward so 
that we can do that, because we need to keep our eye on the 
focus here, which is safety. That's what this is all about.
    Mr. Barletta. Thank you.
    I yield back the balance of my time, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Barletta.
    Mr. Walz?
    Mr. Walz. Well thank you, Mr. Chairman. And I don't know 
how the two of you came to it. I'm just glad you have the 
hearing. So I'm glad you worked it out, but I am grateful. I 
want to thank all of you for being here, and I think Mr. Cramer 
was right. I certainly feel a sense of collaboration. We are 
all the same goal here. We want to keep our citizens safe and 
we want to move important products, and we have to figure out 
strike that balance. We need to listen to all the perspectives.
    I was down on Monday in Winona, Minnesota, on the river 
down there on the Mississippi with fire chiefs, mayors and 
first responders from our side of the river and over in 
Wisconsin, and discussing some of the things, looking at this 
from what do you do in those first minutes of a catastrophic 
incident that we all hope doesn't happen. How do you mitigate 
it and make it less catastrophic, if there is such a thing, and 
then how do you prevent it.
    The thing I came out of that with, though, is the folks. 
They referred to these as incidents--not accidents. And it kind 
of changes the point of view on how we're getting after it, of 
let's look at it that way, and let's try to mitigate them. 
Let's try to see them as the incidents. And they welcomed some 
of the news that was coming out of there.
    I think the thing to keep in mind for these, these are mid-
sized communities out there. But as they pointed out--Chief 
Bittle pointed out to me--he doesn't believe there are three 
fire departments in America that could respond in an urban area 
to a Casselton type of incident, making the case that on these 
catastrophes the best they can do is triage for life and limb. 
So they brought up the suggestion--and this is one we are 
looking--does there need to be a broader response. Does their 
need to be some help in this. Because their point was they 
can't keep enough foam; nor does it make sense to do that in 
one of those places. And their concern--they are grateful they 
received training; from both our shippers and our railroads 
give their members training. But, they said, one of the things 
is the continuation and the institutionalized nature of it.
    They said when chlorine was the big issue, folks came in, 
gave their firefighters chlorine training, gave them equipment, 
and then 5 or 6 years later after that had stopped, most of 
those firefighters were gone. The equipment was old and that 
ended. And their point was we want to do this; we want the 
help. We wanted to come in, but let's stay consistent with it. 
So I asked how do we do that. How do we institutionalize it and 
how do we prepare for something that there is no way that the 
city of La Crosse, Wisconsin, and Winona, Minnesota, can 
prepare in an urban setting like that?
    Ms. Quarterman. Thank you for asking that question. I am 
fortunate to have as my deputy a former fire chief. And over 
the past several weeks, he brought together a group of all of 
the fire organizations across the country: The International 
Association of Fire Fighters, the International Association of 
Fire Chiefs, the National Association of State Fire Marshals, 
the U.S. Firefighters Association, the API, the AAR; and sat 
them down at the table to say, OK, what is the readiness for 
response to this across the country. What kind of training do 
you need to have to be prepared for this?
    And I think that was a good first step. You look at the 
agreement that the secretary has with AAR, you will see again 
that it is something that the railroads are willing to step up 
and talk about making sure there are no gaps along the routes 
that would be moving these key trains. And, finally, we just 
went out with our hazardous materials, emergency responder 
grants. We have HMEP grants that go to States and to local 
communities; ordinarily, they are going on a much more random 
basis.
    One of the pieces that grant program we put into our 
request for proposal was request for grants that would address 
the crude oil issue in communities that had problems; and we 
are hoping to see a lot of----
    Mr. Walz. Ms. Quarterman, and I appreciate and this is that 
collaboration. They felt very good about it. The problem we 
have, sometimes, though is the city of La Crescent was there 
also, and they said I happen to know Winona's got a better 
grant writer, because we're smaller. So their concern was we 
can't just depend on that. And what do we do to our smaller 
communities that have the same issues?
    Mr. Sumwalt. Congressman Walz, the NTSB agrees with what 
you are saying. One of the three recommendations we issued in 
conjunction with the Transportation Safety Board of Canada is 
exactly the issue you are referring to.
    Many communities in the United States are not prepared to 
respond to something the size of Lac-Megantic or Casselton, 
North Dakota. We want the railroads themselves--not just the 
communities, but the railroads themselves--to be prepared by 
pre-staging equipment, just like they do in the pipeline 
industry.
    Mr. Walz. That was my followup there. And, if I could, I'm 
going to yield back my time. But if Mr. Hamberger could, I 
would really appreciate it, Chairman, if you would indulge a 
bit of an answer on that side, because I appreciate that.
    Mr. Hamberger. Thank you, Congressman. Just to clarify and 
emphasize that one of the things we have in our agreement with 
the Secretary is the first thing you have to do is do an 
inventory. Every one of our railroads does have an emergency 
response plan; but it is not in any way coordinated with other 
members of the industry and we ought to put that into 
inventory, see what's there, see what needs to be done.
    We cannot anticipate having pre-staged foam along 140,000 
miles of right-of-way, but we do have to have some sort of a 
better and a coordinated plan, and we are committed to doing 
that. We also put up $5 million. I say ``we''--my members--put 
up $5 million to pay for stipends to take up to 1,500 people, 
just this year, out to Pueblo, Colorado, Transportation 
Technology Center, which has an emergency response training 
center.
    Working with the API, we're going to put together a very 
specific module, training module on crude. We have one on 
ethanol. We are going to do it on crude, and this is in 
addition to 2,000 we normally have each year. This will be 
another 1,500. We want to make that a long-term plan so it 
isn't something that runs out. We've talked FRA.
    Mr. Denham. Time. Mr. Williams?
    Mr. Williams. Thank you, Mr. Chairman.
    I want to thank all of you for your testimony today. I am 
from Texas. We have got a lot of railroads in Texas. We 
appreciate you being here. My question would be to President 
Hamberger. The industry has stepped forward.
    Mr. Walz. He just gaveled me down.
    Mr. Williams. Well he's got a quick one, so.
    The industry has stepped forward, as we have talked about 
today, with proactive steps for crude training safety, 
especially after the Quebec accident and then again this month 
as the Secretary's announcement shows. These are efforts aimed 
at accident prevention, but there's also discussion about the 
accident mitigation and the tank car design, which we talked 
about also.
    Burlington Northern Santa Fe Railway has made announcement 
last week that it was issuing an RFP for the next generation 
tank car. My question would be what can you tell us about that, 
and what does it mean for the transportation of crude by rail.
    Mr. Hamberger. Well I think it says a number of things. It 
says Burlington Northern Santa Fe, which is the origin carrier 
of a vast majority of the crude being produced in the United 
States is as our entire industry does stepping forward and 
putting their money where their mouth and saying that we 
believe as the origin carrier there needs to be a safer tank 
car, even safer than the CPC-1232. And that's a commitment they 
have made and we have consensus to use that car for crude.
    Mr. Williams. I think it shows the private sector can do 
the right thing. Can't they?
    Mr. Hamberger. Yes, sir.
    Mr. Williams. Another question, too; I'd like to go back on 
something you said earlier. Can you expand on what you talked 
about on the FCC's position of laying the BTC?
    Mr. Hamberger. Yes, sir. Thank you. I was hurried there at 
the end, though. About a year ago, after we had installed 
10,000 communication polls, the FCC told us that they did not 
believe we were complying with their regulations to implement 
Section 106 of the Historic Preservation Act. They have a very 
complex system set up, unlike any other agency, and they told 
us to stop installing these poles.
    We have already lost one construction season and right now 
they have tried to come out with a way to streamline their 
process. I appreciate Chairman Wheeler's personal attention to 
this, but I can tell you it does not work. It is still a pole 
by pole analysis. We need to have an exemption for these poles, 
which are not on Native American property, they are on our 
right of way. And the worst thing is they have now made a 
requirement that we have to prove that there is no cultural or 
historic interest in the site where we want to put a 
communication pole. It seems to us that the clear reading of 
the Historic Preservation Act that if someone believes there is 
a cultural, historic value there, they come forward to show 
that there is; not that we have to prove the negative. It just 
flips everything on-side.
    Mr. Williams. How do you prove that?
    Mr. Hamberger. Exactly; you can't prove a negative.
    Mr. Williams. Big Government. Mr. Chairman, I yield back.
    Mr. Denham. Thank you. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    In 1991 NTSB identified the 111 car as inadequate. Then, 
after 20 years of inaction by regulators, first the Secretary's 
office and later by PHMSA, AAR, out of frustration, adopted 
their own standard. And, now, NTSB says that standard isn't 
adequate and you have a number of suggestions on how it should 
be improved.
    So are the cars--are you familiar with the cars BNSF is 
ordering, because they do exceed that standard--do they address 
the concerns you've raised on the new AAR approved model?
    Mr. Sumwalt. I understand that BNSF has said that they want 
to get the next generation cars, but there are no 
specifications for those cars. You're right--the NTSB has had 
longstanding concerns about the current regulatory standards 
for the DOT-111 cars.
    Mr. DeFazio. Right; but, I guess here's my concern. We are 
creating a great deal of uncertainty. We know we can make 111s 
a little safer with the head shields and other things we could 
do with modifications. We know the AAR-approved version is 
better than the 111s, even if they weren't improved.
    BNSF, from what I understand, is going to go further with 
thermal shielding and double walls, and there's an argument 
over the thickness and all those things. But I guess my concern 
then turns to PHMSA. PHMSA was created in 2004 and it took them 
until 2013 to put out an advance notice of proposed rulemaking, 
which is the kind of stuff that drives you nuts around here.
    What is the earliest date that that advance notice of 
proposed rulemaking could be translated into a final rule so 
that we have some certainty, so people know what to order and 
what the future is for safer cars? What's the earliest date? 
The chairman asked you a question about this, but you couldn't 
really give us what is the earliest date if everything went as 
quickly as you can move it. What is the earliest date at which 
we could have a standard, a new standard?
    Mr. Quarterman. Let me go back to----
    Mr. DeFazio. No, just give me that. What is the earliest 
date? I mean advance notice and then proposed rule, and then 
revised proposed rule, and then more. You know. What is the 
earliest date, using whatever extraordinary or emergency 
procedures are out there, could we have a new approved design 
standard so people could start building them and be assured 
that what they're buying and building is going to be--you 
know--is going to be approved for the next 25 or 30 years, the 
life of the car?
    Ms. Quarterman. The DOT-111 tank car was designed back in 
the 19----
    Mr. DeFazio. Ma'am, I am asking a specific question. Given 
your bureaucracy, what is the earliest date at which you could 
approve a new standard, since NTSB is very specific about what 
they want to see in that standard. It isn't like this is 
creating something new. They have said what needs to be 
approved over what AAR has, and when is the earliest date which 
you could have a final rule so people can start buying these 
things?
    Ms. Quarterman. I will get to answering your question, but 
the beginning----
    Mr. DeFazio. OK. Thank you.
    Ms. Quarterman. Beginning in 2011, PHMSA, the FRA, the 
Department worked very closely with AAR in their Tank Car 
Committee, looking at a new generation tank car as well as 
other operational fixes for a highly flammable crude. As you 
have heard from the NTSB and also AAR itself, PHMSA, DOT and 
FRA at the time did not think that that standard was adequate, 
which is why we went forward with an advanced notice of 
proposed rulemaking.
    Mr. DeFazio. OK.
    Ms. Quarterman. During the process of putting out the 
advanced notice of proposed rulemaking, we continued to get 
comments and petitions, and that continued to drag out the 
advanced notice of proposed rulemaking.
    Mr. DeFazio. Hmm-hmm. OK. Fine.
    Ms. Quarterman. Even today you hear from----
    Mr. DeFazio. OK. All right. I am going to just stop you 
there, ma'am. I am going to reclaim my time, because you are 
not going to answer my questions.
    Ms. Quarterman. I will answer your question.
    Mr. DeFazio. Ma'am, just suspend, please.
    Look. The problem is we could make the existing cars safer. 
We are not requiring that. We could, you know. We could condone 
the existing new design and say if you buy that you can use it 
for the next 30 years. We could look at what NTSB has proposed 
as a design and put that out there.
    We could have some certainty. Right now, there is so much 
uncertainty, people are not going to make the investments in 
safer cars. Are we going to keep running these crummy 111s as 
they are and killing people? So the bottom line is how quickly 
can you have a new design, period. Answer, please. You get 30 
seconds.
    Ms. Quarterman. The companies, as you heard, are making 
investments, and we appreciate the fact that they are making 
those investments. But we need to get this right, which means 
we need to hear the comments from all the parties involved and 
all the improvements.
    Mr. DeFazio. OK. But if you would set the deadline, ma'am.
    Ms. Quarterman. And----
    Mr. DeFazio. What is the earliest deadline you can set to 
get it done?
    Ms. Quarterman. I can tell you when I could get the rule 
done, but I cannot tell you when everybody else----
    Mr. DeFazio. You don't. You close comments. You say we're 
done, done with comments. We are going to come up with a 
design. We are going to look at this.
    Ms. Quarterman. Well we are done with the comments. As I 
mentioned earlier, we are drafting the rule as we speak. The 
process for rulemaking, once it leaves my shop and FRA's shop 
is another 120 days at a minimum.
    Mr. DeFazio. Thank you. Finally, thank you.
    Mr. Denham. We have had votes called. I do have an 
agreement from the Republicans that we are going to go out of 
order so that we can facilitate some of the schedules over 
here. So, next, I would call on Mr. Michaud.
    Mr. Michaud. Thank you very much.
    Mr. Tolman, thank you for your prepared testimony and 
support for the Safe Freight Act. You mentioned that many tasks 
cannot be accomplished by one person. Can you go over some of 
those tasks for us and explain how multiple crewmembers improve 
safety?
    Mr. Tolman. Sure. Thank you for the question.
    First of all, let's take the accident in Quebec. There was 
an unattended train, but it was a single-person operation. They 
left the train on an incline, and if they had two people they 
could cut a crossing. In other words, you cannot possibly cut a 
crossing that had 72 cars, 3 locomotives alone. You had to pull 
up, to pull the train up at this incline and leave it. It was 
the only place they could leave a train of that size in that 
particular area.
    If you had a two-person crew, somebody could drop back and 
open up a crossing, and split the train in several different 
ways on a public crossing. That is one particular thing. In the 
Casselton accident in North Dakota just recently, I don't know 
whether you know that most people don't know there was a 
locomotive engineer and a trainman that pulled cars and 
equipment away from the explosion that already happened that 
mitigated that particular accident.
    The redundancy of two people in a train is vitally 
important. The communication about what the signal is, what the 
safety is, what's the rule we are running under, et cetera, et 
cetera, is absolutely vital. You don't get on a commercial 
airline today with a single person up there. You have two 
people for obvious reasons. Safety redundancy in having two 
people is absolutely necessity.
    Mr. Michaud. Thank you.
    Administrator Szabo, you have heard Mr. Tolman on the 
benefits of multiple-person crews. Is it your believe that 
multiple-person crews enhance safety?
    Mr. Szabo. FRA is officially on the record stating that we 
believe a multiple-person crew enhances safety. Mr. Tolman is 
correct about the role that they played in Casselton that 
likely averted what could have been a much more serious 
situation. Effective crew resource management just dictates 
that you have to have this interaction amongst multiple 
crewmembers with good operating rules in ensuring safety 
redundancy. You never want a single point of failure.
    Mr. Michaud. Thank you.
    Mrs. Quarterman, AAR, NTSB safety advocates, and numerous 
lawmakers, including myself, have called for retrofit or phase-
out of the older tank cars. Are you considering such a 
requirement? And I would like to get back to when will that be 
done.
    Ms. Quarterman. We are in the middle of a rulemaking 
process, and, yes, that is one of the things that is being 
considered. On the tank car, itself, I want to be sure that I 
am making this point about the importance of having a 
comprehensive solution here. The reason that I and almost every 
witness at this table talk about the different elements of a 
comprehensive plan is it is so important.
    First, we need to prevent derailments. Getting a new tank 
car is not a silver bullet. Tank cars are designed for normal 
operating conditions. That means moving around in the yard, 
going from sidings. They are not built to withstand 40-, 50-, 
60-mile-per-hour derailments. So this is just one piece of the 
mitigative puzzle that we have to put together to ensure the 
safety of these trains.
    Mr. Michaud. OK. Thank you. This is both for you, Mrs. 
Quarterman, and actually Administrator Szabo. And then I know 
DOT's recent agreement with AAR did address some of the aspects 
of the NTSB recommendations, but that agreement only applies 
with Class I railroads, which do not operate in Maine. What are 
you doing to ensure that all railroads take the necessary 
safety precaution--not just Class I?
    Mr. Szabo. A couple of things. I mean, first-off, we are in 
conversations with the short line industry also. They have made 
a separate set of commitments that we are continuing to refine; 
one that they would reduce operating speeds to 25 miles per 
hour or lower, very different operations from the Class I. So 
it is much easier for them to achieve, as well as working with 
my agency on a pilot project where we are going to start 
teaching them risk-based analysis, getting out and doing a 
thorough risk-based analysis, safety analysis, on these routes. 
In addition, some of the small operators--I need to change 
that. Some of the larger short line railroads are interested in 
actually signing on to the AAR agreement.
    Mr. Denham. We have a number of Members who still have 
questions, and certainly a number of Members who had requested 
this very important hearing. Votes have been called. We are 
planning on coming back after votes to make sure we get to 
everybody. Before we go, we are going to allow one, last 
question from Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman.
    I am very happy that we are becoming more self-sufficient 
on energy needs; and, hopefully, we are all here because we are 
concerned about the rail safety. One thing I wanted to talk 
about, last week's call to action was an important step 
forward, I think, in ensuring safety in several different ways. 
I was happy to see that risk-based train routing would be used 
beginning later this year. It would consider local emergency 
response capabilities, among other matters.
    I know that was talked about earlier about the local 
emergency response capabilities. What I wanted to ask, and I 
wanted to ask Mr. Hamberger about this. One of the problems 
that it seems that we have seen is first responders--emergency 
response people--knowing the materials that they are dealing 
with in the case of an accident. Now, let's leave aside the 
issue of mislabeling, for a moment. The question that I have is 
is it possible, right now. Is there a way that first responders 
can readily access what is on a particular train?
    I hear different stories. I hear that on some trains it is 
just a paper manifest. You know. My assumption, from what I am 
hearing, it varies by railroad. It would seem to me it would be 
very helpful if there was a readily accessible manifest that 
first responders could get to almost immediately--as quickly as 
possible--from the railroad, if there is an accident; that 
there could be an electronic manifest that is out there.
    There is a phone number--or however you want to do it--that 
first responders could call and immediately they could be told 
what's on there. What is possible right now? Does it vary by 
railroad, and is there more that needs to be done in this 
matter?
    Mr. Denham. Mr. Hamberger, before you answer, I need to 
recognize Mr. Barletta for a motion.
    Mr. Barletta. Thank you. I request unanimous consent that 
the chairman be permitted to declare recess during today's 
hearing.
    Mr. Denham. Without objection, so ordered.
    Mr. Hamberger, you may proceed.
    Mr. Hamberger. The answer, the short answer to your 
question, Congressman Lipinski, is right now there is a paper 
consist that the crew has in the head end of the locomotive. 
There is also a 1-800 number that emergency responders are 
provided to call the railroad; but, we are working on--to your 
point--an electronic consist that an emergency responder could 
get right away over the Internet. And we hope to have that 
developed by midyear this year.
    Mr. Lipinski. So that is in your plans right now. Will 
every railroad do this, then?
    Mr. Hamberger. Yes, at least the members of the AAR, yes.
    Mr. Lipinski. We will make sure that we follow up with that 
then. Thank you.
    Mr. Tolman?
    Mr. Tolman. Congressman Lipinski, I would be happy to 
announce that the National Firefighters Association and 
Brotherhood of Locomotive Engineers and Trainmen have applied 
for a grant to make sure that we know what to communicate, who 
to communicate with. And we are trying to get our hands around 
the same issue that everybody on this table is trying to do. 
The grant has not been approved, obviously, but it is in 
process, and we believe that it is a very important issue that 
needs to be pursued together. Thank you.
    Mr. Lipinski. Thank you. I will finish up here. One thing I 
want to ask, but I will pass on it. I just want to bring up 
PTC. There is funding. And, maybe for the record, Mr. Szabo 
will want to ask you about what is going to be for the funding 
for PTC, the money that was--what was in the omnibus bill. And 
it is something that I have certainly pushed for. We certainly 
need to do more to help, especially, commuter rail to implement 
PTC, but we don't have much time.
    So I will leave that question for the record. I just wanted 
to put that out there right now, and would like to have a 
discussion with you about what is going to be done with the 
funding made available beyond this week.
    With that, I will yield back. So we can all go vote.
    Mr. Denham. Mr. Lipinski yielding back. Thank you.
    We do have votes. We plan on reconvening at 4:30. And, 
again, we would ask all of our witnesses to stay here until we 
get back.
    [Recess.]
    Mr. Denham. The committee will come to order.
    I would like to first thank our witnesses for indulging our 
vote schedule here. And, at this time, I now recognize Ms. Esty 
for 5 minutes.
    Ms. Esty. Thank you, Mr. Chairman. And particularly want to 
thank our witnesses and our guests here for their patience with 
our ever changing vote schedule. I want to thank and I know 
ranking member not here, but thank them for holding this 
hearing.
    I indeed was one of those Members, as a Representative, 
living in Connecticut who was extremely eager, shall we say, to 
have you here today. I want to thank my colleague, Sen. 
Blumenthal, for testifying and for his commitment and being 
such a strong leader on this issue and partnered for us. This 
is a matter of incredible importance for the people of 
Connecticut, and I appreciate the chairman's willingness to 
work with those of us who have been calling for a hearing.
    Concern for passenger rail safety has been heightened since 
two, major accidents occurred on the Metro-North Railroad in 
Connecticut last May. A train derailment in Bridgeport injured 
more than 50 people. And a Metro-North employee was killed, 
less than 2 weeks later, while conducting a railroad 
maintenance and construction project. Since then, Metro-North 
has experienced power outages, they had interrupted services as 
well as the tragic derailment in New York that killed four 
passengers.
    Now, for Administrator Szabo, FRA launched a voluntary 
Confidential Close Call program, allowing railroad carriers and 
their employees to report near-miss accidents to the FRA. The 
program provides a safe environment for employees to report 
unsafe events and conditions, and shields railroads from FRA 
enforcement for events reported within the program. It has 
helped railroads, like Union Pacific, substantially improve 
safety on their system. FRA has urged all 28 commuter railroads 
to participate in the Close Call program. Out of the 28 
commuter railroads operating in the United States, which ones 
currently participate in the program?
    Mr. Szabo. Well thank you, Congresswoman, for the question. 
We consider Confidential Close Calls so critically important. 
As you saw my testimony, I talk about the three pillars; good 
database enforcement and then these proactive safety efforts. 
Close Call is just an absolute, imperative part of that, 
because it informs us in advance, in advance of an accident.
    To date, there is only one, current commuter railroad 
participating in Confidential Close Calls Reporting. That would 
be New Jersey Transit, although both--now Long Island Rail Road 
and Metro-North--are in the ``formatory'' stages, and we are 
working with them very closely on that. And we have had some 
decent conversations with a couple of others, but we still have 
a lot of work to do to cultivate interest with other carriers.
    Ms. Esty. Yes. And if you could expand a little bit, what 
was Metro-North's reaction to participating in this program, 
both before and after the accident that's occurred?
    Mr. Szabo. You know, I was actually pretty frustrated back 
in May after the first series of accidents, and approached the 
president, Howard Permut, at that time to talk about 
Confidential Close Calls. And, I was a little disappointed in 
the fact they just didn't seem to get it. And, even later when 
I talked to him, there was a frustration.
    The bottom line with this program, it's not something you 
can force upon somebody. You have got to believe in it. You 
have got to believe in its value and you have got to be 
committed to making it work. And on Union Pacific, with the 
original pilot project in North Platte, Nebraska, they get it, 
and it helped them generate a 70-percent reduction in certain 
accidents and injuries.
    Ms. Esty. Well thank you very much. As I'm sure you and Mr. 
Sumwalt know, Metro-North has now undertaken a number of 
initiatives to approve the safety culture, which many of you 
discussed earlier today, and practices throughout the railroad, 
including a change in leadership and a commitment to implement 
a Close Call Reporting System. And we want to work with you in 
whatever way possible to expedite that.
    Mr. Szabo. And, Congresswoman, if I could add, I am very, 
very encouraged by the commitment to this from both Chairman 
Tom Prendergast as well as the new president there, Joe 
Giulietti. I have had a conversation with him. He gets it. He 
is a forward thinker.
    Ms. Esty. Well thank you. We are very eager to move forward 
and get this resolved as quickly as possible. But I did also 
want to flag--so one of my concerns as we move forward is we do 
so in a way that guarantees passenger safety while also 
promoting reliable service. Passenger rail has to be safe and 
reliable, because if a railroad isn't reliable, it will be 
safe, only because nobody is riding on it anymore. And if you 
look at what has happened with the numbers recently in 
Connecticut, we are having a drop of on-time performance and a 
reduction of people taking the rails. And that has implications 
too for our ability to maintain with the revenue flow.
    I know that the FRA has concluded its Operation Deep Dive 
and plans to release that report in March. I also note that the 
NTSB investigations are ongoing and plan to release those 
reports later this year. And I want to know from both of you, 
if I have your commitments to work directly with the State of 
Connecticut and with Metro-North so that we can restore 
serviceable liability as quickly as possible and any prior 
information you can share with us to expedite.
    We are in the middle of a legislative session that is 3 
months long in Connecticut. They need to know budget 
priorities. They need to have direction, right now, or they 
will have to come back in special session. It will delay safety 
and delay reliability.
    Mr. Denham. Quick, all, a quick response.
    Mr. Szabo. Definitely, yes, already been in conversation 
with Commissioner Redeker up there in Connecticut and have 
promised him a briefing on this. So both commissioners' offices 
in New York and Connecticut, as well as the Governor's office, 
will be a part of our----
    Mr. Sumwalt. Thank you.
    Mr. Szabo. Absolutely. That's the short answer, and I would 
be glad to provide more for the record, if you like.
    Ms. Esty. Thank you and we will follow up. I appreciate it. 
Thank you, Mr. Chairman.
    Mr. Denham. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    About 2 years ago, there was approximately zero gallons of 
Bakken crude running up the BNSF line north of Seattle to the 
four refineries, four of the five refineries located north of 
central California on the west coast. When all the reception 
facilities are built out, there will be about 12 million 
gallons per day traveling through the North. So this issue has 
really come on strong; and, as Representative Cramer said 
earlier, the technological ability to pull stuff out of the 
ground is kind of ahead of our ability to plan ahead for it, 
for its transportation.
    And so a lot of communities are playing catchup. So I have 
some questions, really, about that. A lot of great questions 
have been asked, but just some generated out of the committee 
meetings I had, first for FRA. What is the current inspection 
requirement before the agreement--for rail line inspection 
before the agreement came out?
    Mr. Szabo. Are you talking about for track inspection?
    Mr. Larsen. Track inspection.
    Mr. Szabo. It would depend on class of track and tonnage; 
but, in many cases, what that agreement does is take it from 
what was a foundation of two and up it to five.
    Mr. Larsen. Two inspections?
    Mr. Szabo. Yeah. It does depend. There is not a simple 
answer to that. It is more kind of a----
    Mr. Larsen. Right. It is a formula base. Does the formula 
take into account the classification of the material being 
hauled, or is it strictly tonnage?
    Mr. Szabo. At this point the current reg I don't believe 
addresses that. But, you know, that's essentially where we are 
getting at with the agreement, where we get some immediate 
improvements. And, of course, everything will be continued to 
be reviewed as we look at our additional next steps.
    Mr. Larsen. And we will do a followup with you on that. 
What is the oversight from the DOT to ensure that the 
signatories of the agreement maintain their commitment to the 
agreement?
    Mr. Szabo. We consider it, or plan to treat it as an 
enforceable agreement. You know. Even though it does not have 
the power of regulation and does not give us the ability to 
fine, we fully intend to inspect and audit in accord with that 
agreement. And should there be any slippage from the 
commitments, we are prepared to engage with those properties or 
call them out on it.
    Mr. Larsen. Right. So, again, as I understand the formula 
depends upon tonnage. It's also what?
    Mr. Szabo. Class of track.
    Mr. Larsen. Class of track.
    Mr. Szabo. For the record, we will get you full details.
    Mr. Larsen. Great. That would be a great help for the folks 
that I represent. In the category we really can't predict when 
the next incident will occur. Obviously, the committees that 
tackle Tim Walz's comments, they really don't believe they are 
prepared to respond to derailment of crude oil where there is 
an explosion. And pre-staging of equipment kind of gets--the 
only way to really be ready is to have equipment every half a 
mile, or whatever--just way too much equipment.
    So for Mr. Hamberger, one question we got out of the 
meetings I had is what does $5 million of additional training 
buy, exactly?
    Mr. Hamberger. Thank you. And, if I can just for the record 
also indicate from the standpoint of enforcement of this 
voluntary agreement, this is something that CEOs or chief 
operating officers have put their personal name on and their 
companies' names behind. We stepped up in 35 days and said that 
we would take these actions. And so I think that there is no 
doubt in my mind that there will be a great deal of commitment 
within the companies to make sure we live up to those.
    The $5 million is designed in the short term to develop 
this module of focused on crude rail transport and to prepare 
at Pueblo, where we have the emergency response training 
center; to go out and get 20 tank cars, array them as if there 
had been an accident. Outfit them so in fact they will burn; 
buy foam; buy equipment for people to wear to go out at 2 
o'clock in the morning to deal with the emergency; and, then 
also pay--help pay--for about 1500 local emergency responders 
to go out there for a three or four--I guess it would be a 
three-day, very intense hands-on. We hope that----
    Mr. Larsen. I can send you 1500 tomorrow.
    Mr. Hamberger. Understood. And to also pay for development 
of--granted it will be a 101 level, but to go into the 
communities.
    Mr. Larsen. Sure. OK. All right.
    Ms. Quarterman, Administrator Quarterman, on the grants you 
announced, is this a 1-year deal? Is this a multiyear deal? 
Because I don't know that our folks are ready to do it, but we 
have a history of doing, sort of, multijurisdiction grants. But 
I don't know that we're ready to do it this year.
    Ms. Quarterman. It is every year these grants come forward, 
and if you need help or the folks in your community need help 
in filling out grant applications, please contact our office 
and we will help them.
    Mr. Larsen. We will put it together. This has been a 2\1/
2\-month education for me, and I think we are going to be in 
this for a while. So I appreciate it.
    Thank you, Mr. Chairman.
    Mr. Denham. Ms. Brown?
    Ms. Brown. Thank you.
    My friend, Mr. Hamberger, I thought you was going to build 
the car right here, the new car. But I want to commit that I am 
sure that the committee will work with you to help solve your 
positive train control problem with the poles. And so anything 
that we can do, whether it's legislation, calling in the 
agency, we are willing to work with you, because we want to 
move forward.
    Mr. Hamberger. Thank you.
    Ms. Brown. OK. My question, really, a lot of discussion has 
been that it is not just one answer. You know, the new car; it 
is comprehensive. It is the tracks. It is the people that are 
driving the train. It is comprehensive. Can you expound on that 
for me, starting with--and resources? Because, basically, I 
understand that PHMSA--you only have how many employees? What, 
704?
    Ms. Quarterman. I wish we had 700. We have less than 500 in 
the Pipeline and Hazardous Materials Safety Administration of 
which 200 work on pipeline issues, on the hazardous material 
issues for every mode, including air, rail, truck and ship. We 
have less than--about 175 people, about $45 million. There are 
approximately 50 inspectors that handle the movements of 
approximately 1 million shipments of hazardous materials every 
day in this country to address this ongoing issue.
    We have had to pull resources from across not just the 
Department of Transportation, but also other agencies in 
Government to help us with testing, to help us get on top of 
this issue as quickly as possible. We have been doing these 
testings. So far we have spent, I would say, about one-half 
million dollars for budget of $45 million. It is a lot of 
money, especially since we were in a hiring freeze last year.
    We have plans to do further testing this year that will 
cost another $400,000. Thankfully, we have--when our sister 
agency, FRA, is going to help us on some of the testing and 
research that needs to be done, but it is a mountainous 
challenge. You know. We like to say we are small, but 
effective--mighty. There you go. But, certainly, it is a big 
resource challenge for us.
    Ms. Brown. Yes, sir?
    Mr. Szabo. Well you are talking about what does 
comprehensive mean, and it means, actually, from the moment it 
comes out of the ground through the delivery to the refinery, 
and we need to be taking a look at every, single step in that 
process, every single stakeholder in that process and 
understanding everything that everybody must be doing to ensure 
the safe delivery.
    First and foremost, it is about preventing an accident; but 
then the next steps are in what better become those rarer and 
rarer occasions--occurrences--how we mitigate the impact and 
then lastly the emergency response piece. And so we think we 
have had a very good start with what we have put together with 
the industry here over the past week, but there is more to 
come. We have got more work to do, and so this is just--you 
know--a continuation of ongoing efforts.
    Ms. Brown. And NTSB, I met with you all in--I want to say--
New York. And I understand you all have had to turn down some 
responses because of lack of funds.
    Mr. Sumwalt. We also are a very lean organization. We are 
trying to do as much as we can with what we have. As you know, 
we have four current investigations with Metro-North. The same 
day that we launched in Casselton, North Dakota, we sent an 
investigative team to Louisiana on a different rail accident. 
We have a lot going on, and we make sure that the products we 
come out with are thorough, accurate and complete. However, 
with more funding we could reduce our backlog and produce more 
products on a timely basis.
    Ms. Brown. I would.
    Mr. Szabo. And, Chairwoman, if I could add on the resource 
piece, I didn't touch on that.
    Ms. Brown. Yes, yes, sir.
    Mr. Szabo. You know, the Rail Safety Improvement Act did 
pledge 200 additional employees to FRA, and we have not 
received all of those. I would like to thank, obviously, 
Congress for the 45 that were a part of the fiscal year 2014 
appropriation. But we have not yet received all that we were 
promised almost 6 years ago.
    Ms. Brown. But the last--do you want to say something about 
the employees? We constantly discuss the work hours.
    Mr. Denham. Quickly, Mr. Tolman.
    Mr. Tolman. Yeah, sure. As I mentioned in my testimony 
Congresswoman Brown, we need to work together with the carriers 
Rail Safety Improvement Act. There is a means for management to 
meet with labor and come up with risk assessment and reducing 
fatigue in the industry; that hasn't happened in 5\1/2\ years. 
It has to happen sooner than later.
    Ms. Brown. Does it come up during contractual discussions?
    Mr. Tolman. No. It can come up in contractual. We have had 
great programs prior to the Rail Safety Improvement Act. We 
have had 7 and 3, 6 and 2. What's happened in industry is 
really harmful to some of the members. They are leaving them 
over in their layover facilities. They operate away from home 
and stay over there 24, 36 hours, reset their clock, and now 
they get back home after a 12-hour run. They haven't been with 
their family for the last 36, 24 hours. They want to spend a 
little time with their family. Before they know it, they are 
back out, and that is no way to treat people, to make a living, 
or to have any quality of life. And it's fatigue.
    Mr. Denham. Thank you, Mr. Tolman.
    Ms. Brown. Thank you.
    Mr. Tolman. Thanks.
    Mr. Denham. Mr. Szabo, I wanted to follow up on PTC. First 
of all, are any of the Class I freights going to meet the PTC 
deadline?
    Mr. Szabo. No. Certainly, most of them will reach some 
portion of deployment. BNSF is probably the furthest along, but 
I am not aware of any Class I that will meet full deployment.
    Mr. Denham. Why not? What are the major obstacles that are 
delaying them?
    Mr. Szabo. There is, basically, our report to Congress, 
almost 2 years ago now, clearly articulated the technological, 
programmatic challenges that the industry faces in full 
deployment, and that is the point I want to make. The industry 
can and should continue to be both pressed and encouraged to 
deploy as far as possible, as quickly as possible.
    And I really think that it is important that Congress do 
give my agency the tools that we need for provisional 
certification of these implementation plans. Because right now, 
all we are authorized to do under the law that is given to us 
is to say yes or no on that implementation plan. And we are 
required, essentially, to say no if it doesn't adhere to full 
deployment on that 2015 deadline. So we need some additional 
tools.
    Mr. Denham. Now, what obstacles are the FCC presenting?
    Mr. Szabo. It is significant and very concerning. We 
engaged with them again last month, you know. So we are 
certainly doing our job in making them understand how important 
this is to the public. This is about public safety--how 
important it is to the industry, how important it is to my 
agency; and, you know, continue to file comments with them to 
again heighten the importance of timely deployment. So that's 
one additional obstacle over and above the list that was in our 
report to Congress.
    Mr. Denham. Thank you.
    Mr. Tolman, on PTC?
    Mr. Tolman. Yes.
    Mr. Denham. Important necessity?
    Mr. Tolman. Extremely important. We do understand that 
there are obstacles. We clearly do, and I think it was echoed 
very loud and clear about transparency. I mean we need not 
delay this any further, and I know it has to be delayed because 
of the obstacles that are put in front of us. We are realists, 
but it needs to make sure that we have different benchmarks to 
say, OK, where are we in this process? I mean it's extremely 
important. Otherwise, it is never going to get done.
    Mr. Denham. Thank you.
    Mr. Gerard, on PTC, is that something that can be helpful 
to you guys?
    Mr. Gerard. Well I'm not a rail expert, but I will tell you 
that is one of those things we should consider as we look at 
this holistically to work on the prevention side.
    Mr. Denham. And Mr. Melaniphy, your testimony, you talked 
about the disconnect when the FCC says delays to PTC towers and 
construction approvals do not impact commuter railroads. Can 
you further explain that?
    Mr. Melaniphy. There is some confusion as to what they can 
deploy and when they can deploy it; and if they want to put 
this equipment in place and they can't do that, whether it is a 
dozen towers or hundreds of towers have got to put into place. 
They need to know what they can put in an application, when 
they can apply and how they can do that. Without that, they are 
left hanging and we can't complete our systems if we don't have 
that information.
    Mr. Denham. Thank you.
    Mr. Hamberger?
    Mr. Hamberger. Yeah, thank you, Mr. Chairman. As I 
mentioned in my opening statement we will hopefully have by 
next week an update through December 31, 2013, railroad by 
railroad, and where we are each of these steps. The last, big 
stumbling block is backup of server technology, the software 
that does enable the actual communication inter operability 
between and among the railroads. So we will have that up here 
for you right now. We are projecting there are about 24,000 
miles would be operable by the end of 2015, but not 60,000. But 
we will have made, I think, a very good progress by that time.
    Mr. Denham. Thank you.
    Mr. Walz?
    Mr. Walz. Well thank you. I am going to move to the other 
end of that spectrum from the catastrophic and then move to the 
prevention side of things. And Mayor Cabot in La Crescent, 
Minnesota, pointed out to me on that Mississippi River 
crossing, which is not unique. And I understand everyone's 
going to line up. Everybody has their unique challenges, but 
that swing bridge there is one of the oldest in the country, 
one of the oldest crossing the Mississippi. Its companion road 
traffic bridge, highway bridge, was closed down for several 
months. It had catastrophic economic damage, because it was the 
same design as the one in Minnesota. We were very nervous after 
the I-35W bridge collapsed. The mayor told me that bridge has 
been struck five times in the last 10 years in accidents at the 
crossing.
    There is no other option, because that is how you get 
across the river. And my question to all of you is I understand 
you have a lot of these, and each Member could bring up one of 
these things, but my mayor is saying, you know, we're going to 
prepare for things. We want to do this. But, really, the thing 
you could do is make sure this bridge is not 90 years old and 
gets there. How does that play out?
    What is the role of rail infrastructure investments that 
are being made? What's the role of our State rail plan, which 
it's on there? But, as they tell me, so are some other things. 
How do we address and how are those being laid out in terms of 
priorities for what they are? Because my fear is, down there, 
the life and limb and all that; but, if you get a catastrophic 
derailment on that bridge, you shut down the Mississippi River. 
You will find out how quickly the economic numbers will go out 
the roof, because that's the major--very important things being 
shipped. So I will leave it to the experts. How does it work in 
terms of coming together and how do we address that piece of 
it, that this is an infrastructure deficiency that is just 
waiting for an accident to happen, as my mayor said? So whoever 
wants it.
    Mr. Szabo. I guess I'll go first. I mean I think two 
things. One, shortly after I came here as Administrator, we 
passed an out of regulation that sets up a rather rigorous 
bridge inspection protocol that all railroads are required to 
follow. And then we, in turn, audit their plan to make sure 
they are complying with all aspects of the regulation as well 
as their own bridge inspection protocol.
    On the capital investment side, if it is a short line, in 
particular, this is a drumbeat that I have been beating inside 
a lot of TIGER deliberations, particularly for capitally 
starved short line railroads. You know, track upgrades and 
bridge upgrades are very, very difficult improvements for the 
short lines, and yet they are critically necessary for this 
last mile delivery. And so continued support of the TIGER 
program, and if you are talking about a small railroad, 
identifying those things and supporting them through a TIGER 
application is one, potential way of helping generate some 
improvements.
    Mr. Hamberger. Congressman, you raised exactly the two 
points that Mr. Szabo said was going to be my answer. There is 
on the safety side the requirement that these are inspected and 
that indeed they will continue to be able to operate safely. 
And then on the capital investment side, each railroad does 
make its own decisions as to where the investment is needed, 
based on traffic patterns and other needs. And so I don't know 
the specifics of that particular bridge, but with that----
    Mr. Walz. What's our responsibility, Mr. Melaniphy? I mean 
what is the State's responsibility? The Federal Government's 
responsibility? The short line railroad, itself, as Mr. Szabo 
kind of laid that out with the TIGER grants and all that? 
Because I certainly understand that it is critically important?
    Again, everybody's deficient bridge is the most deficient 
in their mind. I understand that part. I'm not trying to say 
that, but what is our role to get these things upgraded and get 
it fixed? It is in our best interest to do that.
    Mr. Melaniphy. From the public sector side, we must invest 
in a service transportation bill. Public sector entities were 
investing $3 billion in PTCs. Something has to give. And so we 
are taking dollars from one place and putting them in another. 
We have to invest in all the infrastructure. It all has to work 
together, whether it's the switches, the rail bed, the bridges. 
All those things have to work together. We need a good service 
transportation bill so we can fund that infrastructure and make 
sure the entire system functions well.
    Mr. Szabo. Then I would say that we continue to urge a 
robust, sustained and predictable source of funding for rail to 
allow us to make capital grants. And to the extent that these 
are for short lines or for passenger rail improvements, safety 
improvements, it is something that would be eligible under the 
program that we have proposed in the last couple of rounds of 
budgets.
    Mr. Walz. Right.
    Mr. Gerard?
    Mr. Gerard. Mr. Walz, I was just going to add perhaps a 
different component or dimension to this, which is very 
important to the committee's jurisdiction. We just recently 
conducted a study that over the next 12 years, when we look at 
infrastructure generally in the United States from an energy 
standpoint, we are projected to expand $1 trillion in the next 
12 years in the United States building energy infrastructure. 
It is estimated that will generate 1.1 million new jobs, just 
building this infrastructure.
    Mr. Walz. And that infrastructure can't be separate from 
the mobile infrastructure that we are going to need to move.
    Mr. Gerard. Precisely, and it all brings us back to the 
safety question, to make sure we are safe. The other thing, 
though, that we keep emphasizing policy matters, not only from 
a safety standpoint, but our ability to move permitting 
operations. To be able to invest this capital is a great 
opportunity for the country as we move to energy security, but 
those are real dollars, and they are all private sector dollars 
that assist a broader economy.
    Mr. Hamberger. I would be remiss if I didn't answer that 
question as well, if I can, Mr. Chairman.
    Mr. Denham. Very quickly, quickly.
    Mr. Hamberger. That our ability to reinvest does depend 
upon this committee continuing to support the balanced 
economic-regulatory system that governs our industry. So, thank 
you.
    Mr. Denham. Thank you.
    Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    So back to my community meetings. There is some question, 
Mr. Gerard, about the vapor pressure of Bakken. And you've also 
mentioned on page 2 of your testimony regarding the 600 
accounting standards, and I understand you are working on your 
601st with regard to classification crude. Could you explain to 
me, one, what the project is? And, second, could you talk about 
what you all know about Bakken regarding vapor pressure and if 
it's--at least from your perspective is it any different? Is it 
the same? How should the communities be thinking about this?
    Mr. Gerard. Let me take the second one first, if I can, 
Congressman.
    Mr. Larsen. Sure.
    Mr. Gerard. Bakken oil is comparable to other light crude 
oils. Now, I know in the media there's been speculation. 
There's been talk about volatility and other things, but it 
falls within that range when you test it, and this is what we 
are hearing back from our members, that it falls within that 
range of typically what you see from light crudes, same or see 
in Texas and elsewhere.
    The vapor pressure issue is an important one, because 
that's one currently that's not required by the regs to test 
for purposes of classification. However, the boiling point and 
the flash point, which we do test for today under regulation, 
we believe was an indication of volatility. Because up until 
about 1990, I believe, the regulator used to require a vapor 
pressure test.
    So when you look at it today, there has been some news 
reports that we believe are unfounded that are not based on 
good data. If you look at the data today, once again, it shows 
that that Bakken oil is in that range of vapor pressures that 
you typically find in a light crude. So, again, it's so 
important we get to the data. We get to the facts and away from 
the speculation to make sure we are treating these commodities, 
these products just to----
    Mr. Larsen. Well, I understand you have some work to do.
    Mr. Gerard. Absolutely.
    Mr. Larsen. Because you could also say that the Seattle 
Seahawks are comparable to a Boy's Club team and that they are 
both football teams.
    Mr. Gerard. I would never say that.
    Mr. Larsen. Neither would I, and I think that's what folks 
had the impression that, yes, they are both crude. They are 
comparable and they are crude, but there's a wide difference 
between that crude and this crude.
    Mr. Gerard. Well, no. There is not a wide difference, and 
that's the point.
    Mr. Larsen. I'm telling you what people in my community 
think.
    Mr. Gerard. Oh, I understand. I understand.
    Mr. Larsen. Yeah. That is what I am talking about.
    Mr. Gerard. I understand.
    Mr. Larsen. All right.
    Mr. Gerard. Now, to the standard setting part, and this is 
what's most important about where we are today, because we are 
looking at things like vapor pressure. We were looking 
holistically at the entire regulatory regime from a standard 
setting process. The 600-plus standards we've developed, the 
API was originally established as a standard setting 
organization. So we have to get accredited. We get audited 
every 5 years by the American National Standards Institute.
    Mr. Larsen. Yes.
    Mr. Gerard. Which comes in and makes sure that we are 
transparent in our operations, that we are all inclusive, and 
that we bring the best minds together to look at these issues. 
These go well beyond the industry. We have got FIMs that 
participate in this process. We have academics. We have the 
railroads and others. So, really, what we are trying to do is 
look holistically.
    We know that we can move 99.99 percent of the products 
safely. Our challenge is to move that last piece of risk out of 
the system, so we get to zero incidents, so you can have 
confidence. Your constituents can have confidence. We have done 
everything we can to have zero incident system here. So in that 
process we go through, we bring in the experts. We look at 
vapor pressure. We are looking at coercivity.
    We are looking at a lot of issues well beyond this. And we 
expect to come back with a best practice, with a standard that 
oft-times is well above what the law requires. And many times, 
at least in the oil and gas base, we are the most heavily 
highly quoted, standard setting group on a global scale in the 
oil and gas space.
    That's our hope. That's our expectation with a single 
focus: safety and improvement in the performance that we are 
trying to achieve.
    Mr. Larsen. And a timeline?
    Mr. Gerard. We expect to have that done in 6 months or 
less. It's on a fast track. Most of these under the 
accreditation processes take about 2 years to develop.
    Mr. Larsen. Right.
    Mr. Gerard. We are expediting this. We are moving it 
forward quickly, and expect to have an earlier outcome.
    Mr. Larsen. All right. Thank you, Mr. Gerard.
    Mr. Hamberger, could you explain again about the 
information available, you mentioned online information put 
online about--well, I thought I heard you say about the 
material coming through our communities.
    Mr. Hamberger. Right now, any community can request and 
will be given exactly what is coming through that community on 
a look-back basis. We try to gauge the training of the 
emergency responders in that community to what is going 
through. The paper consist is on the head end of the train with 
the crew if there is an accident.
    There is also, of course, a 1-800 number that the emergency 
responders are given to call into the dispatch center to find 
out what's on that train, and we are developing an Internet 
base that you could get electronic consist immediately. We hope 
to have that by the third quarter of this year.
    Mr. Larsen. Third quarter of this year. Thank you very 
much.
    Mr. Hamberger. Thank you.
    Mr. Denham. Ms. Brown?
    Ms. Brown. Thank you, and thank you for the safety hearing. 
And I think the next hearing should be in what--North Dakota, 
wherever it is?
    Mr. Hamberger. When it warms up.
    Mr. Gerard. We'll invite you out in the spring.
    Ms. Brown. They said in the spring, but I think that that 
would be the next step, because I think the industry has just 
grown so much in the past. You said every 5 years, I mean, but 
it seems like in the last 6 months to a year it has totally 
changed.
    Mr. Gerard. Yes, it is really remarkable when you look at 
what's happened; and, 5 years ago, no one would have predicted 
it, but it is a very unique American opportunity for us today. 
So we are hopeful to be able to deal with the challenges, like 
safety and others, to really seize this moment. We are seeing 
it not only in job creation, but most recently, we are the 
single largest sector that is reducing our trade imbalance 
today.
    Foreign imports today are down in the small 30-plus percent 
range, down from over 50 just a few years ago. So it is really 
making a big difference. We got a lot of manufacturing coming 
back to the country, because of this affordable, reliable 
energy. So we think this is an issue that transcends political 
parties and everybody else, and we want to go to work 
collectively together to make sure we achieve it.
    Ms. Brown. Well we are really excited about it, but I guess 
I hear a lot of talk, so I need to go see it. There is a 
difference in the crude and that you may need a different kind 
of pipeline or a different kind of car. So I think, you know, 
we are talking about it and we are discussing it. But it is 
nothing like us going on an actual field trip. So I am 
recommending that we take that.
    Mr. Gerard. We would love to help facilitate that, Mr. 
Chairman, and Ranking Member Brown.
    Mr. Denham. Thank you. And it is on our plans. It is 
something very important to this committee, something very 
important to the Nation. We want to be able to see, first-hand, 
the tank cars, the pipes, the full transportation and 
production up there.
    I want to thank all the Members today. This, again, was 
such an important hearing. I heard from a lot of Members on 
both sides of the aisle on how important this was; and, 
certainly, there's not enough time in one of these hearings to 
get through all questions. So we will be submitting a number of 
others with you. But let me close in saying we have got a lot 
of hurdles, you know, especially with--well, we have a very, 
very safe record. In all of our discussions and all of our 
meetings we have continued to say there are more things that we 
can do. And so we need to continue these discussions on; but, 
especially, where we are awaiting action from the 
Administration--PTC, for example--still continue to have big 
hurdles with FCC.
    I know that there are certain areas of the Nation where we 
can move forward and should move forward, and can prevent other 
safety issues. With tank cars, we know that there are newer 
opportunities, newer tank cars, newer developments, but we 
certainly before any private company--before any industry is 
going to commit to a huge capital expenditure--they need 
standards. And so we are going to be working with each of the 
different agencies to make sure that we are getting this 
information back out to you, so that we can continue to improve 
upon safety across the board.
    If there are no further questions, I would ask unanimous 
consent that the record of today's hearing remain open until 
such time as witnesses have provided answers to our questions 
that may be submitted to them in writing, and unanimous consent 
that the record remain open for 15 days for additional comments 
and information submitted by Members or witnesses to be 
included in today's record.
    Without objection, so ordered.
    Again, I would like to thank our witnesses for the 
testimony today and your patience with our voting schedule.
    The committee is now adjourned.
    [Whereupon, at 5:19 p.m., the subcommittee was adjourned.]




                                   [all]


</pre></body></html>
